                                        Preparing
                                        f o r t h e 21s t C e n t u r y




FDIC Office of Inspector General
Semiannual Report to the Congress
April 1, 1999 thru September 30, 1999
In September 1999 our office held

its first Office of Inspector General-

wide conference at the Federal

Deposit Insurance Corporation.

Our conference theme reflects the

sincere commitment we have

made to continuously improving

our work products, processes, and

interpersonal relationships. We

view the coming year as special,

not only because we enter a new

century but also because we are

determined to significantly increase

the value of our contributions to

the FDIC and more fully appreciate

the diversity of the individuals with

whom we work. Our destination is

excellence.
                                        Preparing
                                        for the 21st Century




FDIC Office of Inspector General
Semiannual Report to the Congress
April 1, 1999 thru September 30, 1999
2




                                        Inspector General’s
                                        Statement
April 1, 1999 thru September 30, 1999
             OIG Semiannual Report




                                                   As the countdown begins toward the         September 30, 1999. Such events
                                                   millennium, the Corporation appears        underscore the need for the
                                                   to be well prepared for the new year.      Corporation to keep pace with the
                                                   As a result of its strenuous efforts       changing industry environment and
                                                   over many months, the Federal              its risks, examine whether traditional
                                                   Deposit Insurance Corporation (FDIC)       approaches of supervision and
                                                   does not expect major disruptions to       regulation continue to make sense
                                                   either its internal operations or the      given the changing environment,
                                                   activities of the financial institutions   and explore new ways of delivering
                                                   that it supervises when the calendar       on the promise to the American
                                                   changes from 1999 to 2000. The             people.
                                                   Office of Inspector General’s (OIG)
                                                   work on Y2K matters supports this          The Corporation has taken a number
                                                   expectation.                               of positive steps to meet that chal-
                                                                                              lenge. The Corporation’s performance
                                                   While the Corporation has devoted          goals focus on key areas and the
                                                   many resources to addressing Y2K           FDIC will carefully monitor them.
                                                   risks, a number of other compelling        The Chairman has focused additional
                                                   challenges also require its attention.     corporate attention on three priorities
                                                   Advancements in technology are             and identified senior management
                                                   changing the way that financial insti-     officials in the Corporation to serve
                                                   tutions conduct business. Traditional      as focal points to address them. Her
                                                   methods of banking are being replaced      priorities are keeping pace with the
                                                   by electronic Internet banking trans-      changing industry, handling emerging
                                                   actions. Financial institutions are        risks to the deposit insurance funds,
Gaston L. Gianni, Jr.                              merging and, in some cases, “mega-         and contributing to U.S. leadership
Inspector General                                  banks” are being formed. Historical        on global deposit insurance issues.
                                                   barriers between banking, insurance,
                                                   and securities operations are being        A strong, effective workforce is
                                                   dismantled. The nation’s financial         critical to addressing the Chairman’s
                                                   institutions are operating in the          priorities. In light of the organizational
                                                   context of a complex and rapidly           changes that the Corporation has
                                                   fluctuating global marketplace. And        faced over the past several years —
                                                   at the same time that the Corporation      brought on by downsizing, buyouts,
                                                   looks to the future and deals with         other departures, and relocations —
                                                   these new conditions and their             the Corporation needs to ensure that
                                                   accompanying risks, it must remain         expertise and experience are replen-
                                                   faithful to a promise made in 1933         ished. The corporate diversity plan
                                                   at another critical moment in our          approved by the Board of Directors
                                                   history — protecting the insured           in May 1999 contains a number
                                                   deposits of the American people.           of measures to address that need.
                                                                                              During the new year the Corporation
                                                   On September 1, 1999, the Office           will continue to implement that plan.
                                                   of the Comptroller of the Currency
                                                   closed the First National Bank of          While the OIG is generally viewed as
                                                   Keystone, Keystone, West Virginia.         an organization that oversees others,
                                                   Keystone was a $1.1 billion institu-       I have encouraged my own office
                                                   tion that was closed after evidence        to take a hard look at our internal
                                                   of apparent fraud was found that           processes, work products, and work-
                                                   resulted in the depletion of the bank’s    ing relationships. To ensure that we
                                                   capital. The FDIC was named receiver,      assist the Corporation in accomplish-
                                                   and the resulting loss to the insurance    ing its mission, we also need to be
                                                   fund is estimated to be between            fully knowledgeable of emerging risks
                                                   $750 million and $850 million as of        and attuned to corporate priorities
                                                                                                                            3




  excellence                                                                in the year       2000
                                                                                                and beyond

and goals. Our work must be well           effort on the part of all parties          On a personal note, I have appreciated
planned to add maximum value. Our          involved, the memorandum ensures           meeting and working with the many
communications with the Corporation        OIG access to the information neces-       new executives that the Corporation
need to be timely and relevant. We         sary to discharge the OIG’s responsi-      has brought on board since our last
are focusing on improving those            bility to detect and prevent waste,        semiannual report. One person
processes and, as our September            fraud, and abuse relating to the           whose support I will especially miss
1999 conference theme suggests,            programs and operations of the FDIC        is Mr. Dennis Geer, who retired
striving for excellence in all areas       while at the same time respecting          from his position as Deputy to the
of our own operations.                     the regulatory functions of the            Chairman and Chief Operating Officer
                                           Division of Supervision.                   in September. I look forward to
Thus, the OIG faces challenges similar                                                working with his replacement,
to the Corporation’s. While still being    As another example, during the             Mr. John Bovenzi, the former
faithful to the mission outlined in        reporting period we established our        Director of the Division of Resolutions
the Inspector General Act that was         Human Resources Branch in line with        and Receiverships, in the coming
enacted more than 20 years ago, we         the Chairman’s concurrence that the        months.
too must explore innovative and per-       OIG should have a separate personnel
haps nontraditional ways of providing      authority. In doing so, we coordinated     While speaking of corporate leader-
better value to the Corporation and        closely with the Corporation’s Division    ship, I must reiterate a sentiment
to the Congress as we enter the            of Administration, and we particularly     from my last semiannual report
next millennium. We are committed          appreciate its Personnel Services          statement—my hope that the position
as well to maintaining a diverse           Branch’s assistance to us in the           of Director on the FDIC Board that has
workplace where all individuals can        transfer of OIG records and other          been vacant since September 1998
work to their fullest potential as we      information. Our efforts relating to       will soon be filled. I understand a
carry out the OIG’s mission. In that       the Corporation’s Y2K readiness to         replacement name has been submit-
regard, we have submitted a diversity      date have also been highly collabora-      ted for the President’s consideration
report to the Congress, are develop-       tive and effective, as explained more      and believe that it is in the best
ing a diversity plan, and have named       fully in this semiannual report. In        interest of the Corporation for this
one of our managers to serve as            doing our Y2K work, we have com-           vacancy to be filled promptly. Doing
the focal point to guide our office’s      bined traditional audit measures with      so would allow for an ample learning
diversity activities.                      a proactive, consulting-type approach      period, ensure continuity, and maintain
                                           as we coordinate with the Division         needed historical perspective at the
I am pleased to report that over the       of Supervision, Division of Information    senior-most management level in the
past reporting period we have made         Resources Management, Division             event the Chairman and Vice Chairman
excellent progress in strengthening        of Resolutions and Receiverships,          leave office at the expiration of their
our working relationships with the         Division of Insurance, and other FDIC      terms in October 2000.
Corporation, as the following exam-        offices and divisions on both internal
ples will attest. Of particular signifi-   and external Y2K activities.               In closing, I am proud and appreciative
cance, several weeks ago the Division                                                 of the work and accomplishments of
of Supervision, the Legal Division,        Further, a review of the Corporation’s     the FDIC OIG staff as presented in
and the OIG issued a joint memoran-        copier administration program that we      this semiannual report. I am confident
dum that implemented a previously          conducted in conjunction with the          that we will successfully continue
unresolved recommendation stem-            Division of Administration has resulted    our journey toward excellence in
ming from the OIG’s Material Loss          in significant potential cost savings to   the year 2000. I am equally proud
Review of the Failure of BestBank,         the Corporation over a 5-year period.      of the work of the members of the
Boulder, Colorado, which we dis-           Finally, our efforts with the Corpora-     President’s Council on Integrity and
cussed in our last semiannual report.      tion’s Division of Resolutions and         Efficiency, on which I have served
Significantly, the memorandum              Receiverships to help in the collection    as Vice Chair since May of this year.
establishes a broad framework within       of court-ordered restitution and other     I look forward to furthering the work
which the OIG and the Division of          debts owed to the Corporation were         of the entire OIG community and
Supervision will cooperate in the OIG’s    expanded over the past 6 months            working with the Corporation and
current and future investigations          and have proved beneficial. We are         the Congress to ensure the highest
of certain criminal activity in open       committed to continuing these same         degree of integrity and success in
financial institutions regulated by        types of successful cooperative            government during the year 2000
the FDIC. A product of considerable        endeavors going forward.                   and beyond.
    4




                                            Overview
    April 1, 1999 thru September 30, 1999
                 OIG Semiannual Report




                                                       Major Issues                                and, in some cases, expertise and
                                                                                                   historical knowledge. The Corporation’s
                                                       The Major Issues section of our             diversity efforts are intended to help
                                                       report focuses on key challenges the        restore some of the lost talent and
                                                       FDIC faces as it works to accomplish        skill. The Corporation must ensure
                                                       its mission. The Corporation must           that its corporate diversity plan,
                                                       address ever-present risks to the           approved in May 1999 by the Board
                                                       insurance funds, the most immediate         of Directors, is fully carried out. Finally,
                                                       of which is the upcoming century            under the provisions of the Govern-
                                                       date change. At the same time, the          ment Performance and Results Act,
                                                       Corporation must ensure effective           for all of these major issues, the
                                                       supervision of the financial institutions   Corporation must establish goals,
                                                       it regulates and protect consumers’         measure performance, and report
                                                       rights. With respect to managing and        on accomplishments.
                                                       liquidating assets, the Corporation
                                                       must always seek to maximize                Our Major Issues section also
                                                       recoveries and be particularly vigilant     discusses the OIG’s work to help
                                                       regarding programs where large              the Corporation achieve success in
●   Major Issues
                                                       sums of money are at stake and the          confronting these major issues. We
●
                                                       FDIC does not control the entire            discuss areas where we identified
    Investigations
                                                       management and disposition process.         opportunities for cost savings and
●   OIG Organization                                   The Corporation must also continue          recoveries or other improvements
                                                       its efforts to pursue court-ordered         and the recommendations we made
●   Appendixes                                         restitution and other debts that it is      in those areas. Questioned costs and
                                                       owed. In conducting its information         funds put to better use for the period
                                                       technology activities, the Corporation      total $16.4 million. We made 66 non-
                                                       needs to follow sound system                monetary recommendations. Our
                                                       development life cycle procedures,          work targets all aspects of corporate
                                                       ensure adequate system security,            operations and includes a number
                                                       and contract for information technol-       of proactive approaches and coopera-
                                                       ogy services in a cost-effective            tive efforts with management to add
                                                       manner. Strong controls and effective       value to the FDIC (see pages 10 - 29).
                                                       oversight of the FDIC’s contracting
                                                       activities throughout the Corporation
                                                       are also essential to the Corporation’s
                                                       success.

                                                       Major downsizing over the past 5
                                                       years and natural attrition have greatly
                                                       impacted the FDIC workplace. The
                                                       loss of human resources has resulted
                                                       in corresponding losses of leadership
                                                                                                                              5




Investigations                            OIG Organization                              Appendixes

The operations and activities of the      The OIG Organization section of our           We list the Inspector General Act
OIG’s Office of Investigations are        report highlights several key internal        reporting requirements and define
described beginning on page 30            initiatives from the reporting period.        some key terms in this section.
of this report. As detailed in the        These include our learning organiza-          The appendixes also contain much
Investigations section, the Office        tion efforts, diversity study, and            of the statistical data required
of Investigations is reporting fines,     creation of our Human Resources               under the Act and other information
restitution, and recoveries totaling      Branch. Additionally, the section             related to our work this period
approximately $12.6 million. Cases        includes a discussion of some of the          (see pages 42- 55).
leading to those results included         activities of the President’s Council
investigations of contract fraud, theft   on Integrity and Efficiency, on which
of FDIC property, and suspected           the Inspector General serves as Vice
fraudulent activity related to the sale   Chair. This section also references
of a mortgage subsidiary. Some of         some of the assistance we have
the investigations described reflect      provided to management during the
work we have undertaken in partner-       reporting period, including working
ship with other law enforcement           out final procedures for communica-
agencies and with the cooperation         tions between the Division of
and assistance of the FDIC’s Division     Supervision and the OIG regarding
of Resolutions and Receiverships.         open financial institution criminal
To ensure continued success, the          investigations, coordinating on the
OIG will continue to work collabora-      FDIC’s first overall Business Continuity
tively with FDIC management,              and Contingency Plan, and making
U.S. Attorneys’ Offices, and a number     presentations at corporate confer-
of law enforcement task forces and        ences and meetings. We present
working groups (see pages 30 - 33).       a listing of laws and regulations
                                          reviewed during the past 6 months
                                          and also capture some of our other
                                          internal initiatives this reporting period,
                                          including the OIG Performance Plan,
                                          internal systems development
                                          initiatives, and our first office-wide
                                          conference. In keeping with our
                                          goal of measuring and monitoring
                                          our progress, we visually depict
                                          significant results over the past 5
                                          reporting periods (see pages 34 - 41).
6




                                        Highlights
April 1, 1999 thru September 30, 1999
             OIG Semiannual Report




                                                     ●   The Office of Audits and the Office of Congressional Relations and
                                                         Evaluations issue a total of 26 reports and 11 audit - or evaluation-
                                                         related memorandums. The reports identify questioned costs of
                                                         $6.2 million and funds put to better use of $10.2 million. Management
                                                         disallows $4.9 million questioned.

                                                     ●   OIG reports include 66 nonmonetary recommendations to improve
                                                         corporate operations. Among these are recommendations to improve
                                                         cost-effectiveness and controls over contracting, enhance systems
                                                         security, strengthen supervision and examination activities, better
                                                         capture performance information in line with Government Performance
                                                         and Results Act requirements, and fully comply with compliance and
                                                         Community Reinvestment Act requirements.

                                                     ●   OIG continues to coordinate Y2K work with the Division of Supervision,
                                                         Division of Information Resources Management, Division of
                                                         Resolutions and Receiverships (DRR), and Division of Insurance as
                                                         Year 2000 draws ever closer. Work includes consulting and advising
                                                         on OIG observations and best practices suggestions and preparing
                                                         to observe the Y2K “rollover” weekend of December 31, 1999 –
                                                         January 2, 2000.

                                                     ●   OIG investigations result in 7 convictions, 5 indictments/informations;
                                                         4 arrests; and about $12.6 million in total fines, restitution, and
                                                         monetary recoveries.

                                                     ●   Chairman Tanoue issues Corporate directive on Cooperation with
                                                         OIG Activities, setting forth responsibilities of all FDIC employees,
                                                         contractors, and subcontractors regarding investigations, audits,
                                                         evaluations, and other activities conducted by the OIG.

                                                     ●   OIG and Division of Administration collaborate on review of the
                                                         Corporation’s copier administration program. These efforts lead to
                                                         changes that could ultimately result in savings of $9 million to the
                                                         Corporation.

                                                     ●   OIG reviews 14 proposed or existing federal regulations and legisla-
                                                         tion and 28 proposed FDIC policies and responds to 21 requests and
                                                         appeals under the Freedom of Information Act and Privacy Act.

                                                     ●   OIG issues report on OIG workplace diversity to the House
                                                         Subcommittee on VA, HUD, and Independent Agencies, Committee
                                                         on Appropriations.

                                                     ●   Meetings and dialogue result in progress toward issuance of a memo-
                                                         randum that prescribes procedures for communications between the
                                                         Division of Supervision and the OIG regarding open financial institution
                                                         criminal investigations.
                                                                                                        7




                                                                issues
●   In keeping with Chairman Tanoue’s acknowledgement that the OIG
    has the authority to make its own personnel decisions pursuant to
    the Inspector General Act, the OIG establishes an independent,
    full-service personnel function and fills the position to lead that activity.

●   The OIG furthers efforts with DRR to pursue court-ordered restitution
    and establishes procedures for ongoing exchange of information.
    Since June, 7 new cases are being coordinated with DRR, involving
    a total of almost $10 million in outstanding restitution orders or other
    types of debt. More than $1.2 billion is owed to the FDIC for criminal
    restitution. To date, about $138 million has been recovered.

●   The OIG and U.S. General Accounting Office continue their joint effort
    to audit the Corporation’s financial statements. The OIG plays increas-
    ingly greater role and assumes audit responsibility for major sections
    of the audit.

●   The OIG coordinates with and assists management on a number of
    projects, including soliciting input for audit suggestions for the year
    2000 plan and providing suggestions to improve the Corporation’s
    Standard Asset Valuation Estimation model.

●   The OIG holds its first office-wide conference, OIG 2000 — Destination:
    Excellence, and, in the spirit of a learning organization that constantly
    seeks to improve, focuses on better communication, working more
    efficiently and effectively, leadership, and diversity issues.
                                                                           a u d i t s




                                                                                         investigates


             coordination
2       Inspector General’s Statement

4       Overview

6       Highlights

10      Major Issues

30      Investigations

34      OIG Organization

42      Reporting Terms and Requirements

        Appendixes
44    I Statistical Information Required by the
        Inspector General Act of 1978, as amended

53   II Reports Issued by the Office of Congressional
        Relations and Evaluations

54   III Statistical Information Related to OIG
         Completion of RTC Contractor Reviews

        Tables
39   1 OIG Review of Proposed or Existing Regulations
       and Legislation

40   2 Significant OIG Achievements

40   3 Nonmonetary Recommendations

        Figures
41   1 Reports Issued and Investigations Closed

41   2 Questioned Costs/Funds Put to Better Use

41   3 Fines, Restitution, and Monetary Recoveries
       Resulting from OIG Investigations
    10




                                            Major Issues
    April 1, 1999 thru September 30, 1999
                 OIG Semiannual Report




                                                       Under the Inspector General Act, the     Corporation Continues
                                                       FDIC OIG is charged with promoting       Y2K Preparation
                                                       the economy, efficiency, and effec-
                                                       tiveness of FDIC programs and oper-      The FDIC has taken very seriously
                                                       ations and protecting against fraud,     the potential threat of Y2K to the
                                                       waste, and abuse that can harm or        stability of the nation’s financial
                                                       hinder the Corporation’s success.        system. It has devoted extensive
                                                       In that regard, the OIG has identified   resources to addressing risks posed
                                                       a number of major issues facing the      by the upcoming turn of the century.
                                                       Corporation. The results of our work     In remarks before a Year 2000 Summit
                                                       over the past 6 months are presented     on September 17, 1999, FDIC Chair-
                                                       in the context of these issues. The      man Tanoue explained the Corpor-
                                                       major issues are closely related         ation’s Y2K efforts, progress to date,
                                                       to the Corporation’s mission: to         and plans for the next few months.
                                                       contribute to stability and public
                                                       confidence in the nation’s financial     She reported that nearly all federally
                                                       system by insuring deposits,             insured financial institutions are
                                                       examining and supervising financial      prepared for the Year 2000. As of
                                                       institutions, and managing               September 15, 1999, only 27 FDIC-
                                                       receiverships. Our work over the         insured financial institutions had a
                                                       past 6 months addresses these            Y2K supervisory rating of less than
                                                       major issues and supports the            satisfactory. The Chairman pointed
                                                       corporate mission.                       out that these 27 institutions are
●   Addressing Risks                                                                            part of a population of 10,273 financial
    to the Insurance Fund                                                                       institutions insured by the FDIC and
                                                                                                supervised either by the FDIC or
●                                                      Addressing Risks                         other financial regulatory agencies.
    Supervising Insured
                                                       to the Insurance Funds                   As such, they represent about one
    Institutions and Protecting
                                                                                                quarter of 1 percent.
    Consumer Interests
                                                       As the FDIC Chairman often empha-        The Chairman affirmed her belief that
●   Maximizing Returns                                 sizes, the FDIC symbol displayed in      the banking industry is among the
    from Failed Institutions                           the branches of financial institutions   industries best prepared for Y2K. She
                                                       across America provides peace of         referenced the fact that the FDIC had
●   Managing Information                               mind to the public. When depositors      heightened scrutiny of the few insti-
    Technology                                         see this symbol, they know that their    tutions lagging in their preparedness
                                                       insured deposits are safe. For 66        and spoke of the FDIC taking enforce-
                                                       years, the FDIC’s mission has been       ment actions against institutions that
●   Ensuring Sound Controls                            to maintain stability in the nation’s    are behind, when necessary. Such
    and Oversight of                                   financial system and sustain the         actions are made public and can be
    Contracting Activities                             confidence of the public. Although       found listed on the Corporation’s
                                                       the challenges to stability have         Web site: www.fdic.gov.
●   Operating Effectively                              changed through the years, the
    in a Changing Environment                          Corporation’s goal has remained          As for the final 3 months of the Year
                                                       steady. A preeminent risk to stability   2000 supervisory program, examiners
●
                                                       and public confidence over the past      will focus on key areas, known as
    Establishing Goals                                 several years has been the coming        the three “Cs”:
    and Measuring Results                              of the Year 2000 and the potential
                                                       problems associated with that date       ●   Communicate to their customers
                                                       change.                                      and business partners about their
                                                                                                    Y2K readiness efforts. Public
                                                                                                    relations activities and informa-
                                                                                                    tional materials are essential in
                                                                                                    keeping consumers advised.
                                                                                                                           11




●   Clean management. Making              have communicated concerns and           ●   Presented DOS with observa-
    sure that no problems could be        suggestions to FDIC management               tions and suggestions on Y2K
    re-introduced that would com-         through briefings and advisory               Tracking System Clean-up
    promise the Y2K readiness of          memorandums to achieve a real-               Procedures that DOS had
    systems. Generally, this activity     time, proactive approach for relaying        provided to its regional offices.
    involves a series of testing and      important Year 2000 information
    re-testing systems when changes       to management. Best practices            ●   Provided DOS with information
    are made.                             observed during the audit team’s             related to phase III universe and
                                          nationwide travels have also been            sample that was developed to
●   Contingency planning. Financial       summarized and presented to man-             validate answers of institutions
    institutions need to make sure        agement. More recently, we have              that orally claimed to have com-
    consumers have access to              adopted a consulting approach of             pleted testing, implementation,
    their money and other banking         sharing observations less formally           renovation, and contingency
    services if a Year 2000 disruption    and working closely with the Division        planning by June 30, 1999.
    occurs. Regulators too must           of Supervision (DOS), the Division of
    be ready for any possible contin-     Information Resources Management         ●   Visited 14 banks, 7 at the request
    gency, no matter how remote.          (DIRM), the Division of Resolutions          of DOS, to observe how these
                                          and Receiverships (DRR), and the             banks were informing their
Finally, the Chairman spoke of possi-     Division of Insurance as they address        customers as to the bank’s
ble increases in scams, rumors,           concerns we have identified. High-           readiness. Also conducted an
and advertising with a negative Y2K       lights of our Y2K work during the            Internet search to determine
theme as the final days of 1999           reporting period follow.                     whether Web sites provided
approach. She warned the public to                                                     Y2K information to consumers.
be wary of individuals who may prey       External Supervisory Efforts                 Provided DOS a summary of
on people’s fears and uncertainties,      ●   Presented best practice                  our results on these consumer
stating: “...if you have your money           suggestions and observations             awareness issues.
in a federally insured bank, thrift, or       based on phase II audit work to
credit union account, keep it there —         DOS. Identified practices that       ●   Reviewed 39 of the 199 Y2K
where it is secure.”                          field offices used to help ensure        assessments included in DOS’s
                                              consistent, accurate, well-              quality assurance review program
The Corporation has developed a               supported phase II assessments,          as of September 23, 1999.
comprehensive strategy for coverage           such as additional examiner              Provided observations and sug-
of events during the “rollover                training and guidance, working           gestions relating to the quality
weekend” of December 31, 1999 -               proactively with banks on test           assurance review process.
January 2, 2000. The OIG will be on           plans, performing two on-site
hand to observe the activities of that        phase II assessments, and            Internal Efforts
weekend.                                      implementing a formal review         ●   Monitored development of both
                                              process for phase II reports.            a corporate-wide business conti-
                                                                                       nuity plan and a Y2K-specific
                                          ●   Reviewed a total of 110 phase            plan at the suggestion of the
OIG Addresses Final Phases                    III assessments at 9 DOS                 Chairman of the Y2K Oversight
of Y2K Preparation                            field offices. Communicated              Committee.
                                              observations on all 110 and
The OIG’s Y2K work has focused                suggestions regarding ratings        ●   Reviewed telecommunications,
on both the FDIC’s Y2K supervisory            of 5 of the phase III assess-            facilities, data exchanges, and
efforts and on its activities related         ments reviewed.                          systems use from user input
to the readiness of the Corporation’s                                                  through final output, including
internal systems. We are focusing         ●   Conveyed message that not all            communications and interfaces,
on all five phases of the FDIC’s              field offices had contacted banks        and found them to be effective.
approach to Y2K: awareness,                   to determine their compliance
assessment, renovation, validation,           with the FDIC’s June 30, 1999        ●   Completed testing of five of the
and implementation. Specific details          deadline for testing, implementa-        FDIC’s mission-critical systems.
of our work have been discussed               tion, and contingency planning,          Worked cooperatively with
in previous semiannual reports. We            as required by phase III guidance.       DIRM in exchange of test
12




     results. Communicated results        The issue of megabanks is a signifi-      services. Protecting customers’
     relating to test files, documenta-   cant one. In recent years, major          privacy in a rapidly growing informa-
     tion, and testing methodology        banks have been rapidly developing        tion marketplace is also an issue of
     and found that, overall, most        into enormous and complex financial       concern.
     systems reviewed by the OIG          conglomerates. The total value of
     and the FDIC had a low risk of       bank mergers in 1998 alone, $233          Another key consideration for the
     failure.                             billion, exceeded the combined total      FDIC as insurer is to ensure that the
                                          from the previous 6 years. Because        risk-based premium system avoids
The Corporation has been receptive        the industry has undergone such           an excess build-up of risk. The
to the observations and suggestions       widespread consolidation, 39 institu-     Chairman has urged FDIC staff to
that we communicated and in many          tions control one-half of the country’s   make sure the premium system
instances took action that addressed      banking assets, almost $4.5 trillion.     reflects what the risk-focused super-
any OIG concerns. We are commit-          The trend toward consolidation            visory process indicates. The Corpo-
ted to continuing to work with the        continues in dramatic fashion and         ration has a risk-based premium
Corporation in the weeks ahead to         will continue to place increasing         system initiative underway that is
help ensure a successful “rollover”       risks on the deposit insurance funds.     targeted at risky banking practices.
to the Year 2000. Some OIG staff          As of March 31, 1999, there were          The Corporation has been working
will be on location at FDIC sites to      39 megabanks in the country-that          with other regulators to develop
observe activities during the week-       is, 39 banks with $25 billion or more     ways to identify institutions with
end of December 31 and will be            in total assets.                          atypically high risk profiles in the
available to do audit work or assist                                                best-rated category of the risk-based
with problem solving, should the          Of particular note, during the report-    premium matrix — that is, those
need arise.                               ing period (on September 1, 1999),        that are not currently paying deposit
                                          the Office of the Comptroller of the      insurance premiums. Characteristics
In our next semiannual report we will     Currency closed the First National        such as rapid growth, high lending
feature a retrospective look at all of    Bank of Keystone, Keystone, West          concentrations, and high yielding
our Y2K audit efforts.                    Virginia. Keystone was a $1.1 billion     assets would be identified. Under
                                          institution closed after evidence of      the initiative, if concerns related to
                                          apparent fraud was found that resulted    these practices are not addressed,
                                          in the depletion of the bank’s capital.   a bank would be reclassified and
Other Risks Require Vigilance             The FDIC was named receiver and           expected to pay premiums.
                                          the resulting loss to the insurance
The Corporation cannot limit its          fund is estimated to be between           In addition to ongoing consolidation
attention to Y2K matters — it must        $750 million and $850 million as of       within the banking industry, legisla-
remain alert to emerging risks and        September 30, 1999. Failure of a          tion currently pending before the
adapt to a rapidly changing financial     megabank would take an even               Congress would allow under certain
services marketplace. In terms of size,   higher toll on the insurance funds.       circumstances the affiliations
complexity, and sensitivity to the                                                  between and among commercial
global economy, banks have under-         Banking activities related to cyber-      banks, insurance companies, and
gone tremendous changes. The              banking, electronic cash, and other       securities firms and other financial
Chairman has urged the employees          highly technical financial delivery       services providers. If enacted, the
of the FDIC to find better ways to        systems also pose increasing risks        legislation will provide a framework
understand increasingly large, complex    to the safety and soundness of the        for significant restructuring within
institutions; the businesses they         banking industry and, consequently,       the financial industry generally,
conduct; and the risks they pose. In      the deposit insurance funds. Addition-    and will open many new business
light of impending risks or problems,     ally, personal bankruptcies, syndicated   activities to the banking industry
two questions need to be considered:      lending, international investments,       in particular. Such restructuring
(1) How would the Corporation deal        subprime lending, and credit card         would pose additional, significant
with a “megabank” that is in trouble      lending are areas where adverse           challenges to bank regulators and
or fails? and (2) What expanded bank      trends could cause losses to the FDIC     could create new and very different
activities should be covered by the       and banking industry. The Corporation     risks to the deposit insurance
FDIC’s “safety net”?                      must guard against these risks and        funds.
                                          continue to ensure that consumers
                                          have fair and equal access to financial
                                                                                              13




OIG Work Addresses Emerging Risks

The OIG is conducting three ongoing
reviews to address some of the
most significant risks facing the
Corporation and the banking industry,
as described above. The following
narrative presents a brief summary
of the background and nature of
these reviews. Results of this work
will be contained in the next semi-
annual report.                            Update to BestBank Material Loss Review
●   Megabanks and Backup                  In our previous semiannual report, we reported that the
    Authority: Of the $4.5 trillion       FDIC Division of Supervision's (DOS) oversight of
    in assets controlled by the 39        BestBank was hampered by the examiners' restricted
    largest institutions, the FDIC is     access to BestBank's third-party servicer and by
    the primary federal regulator for     restricted access to bank employees and records. As a
    only $77 billion in two of these      result of our recommendations, the FDIC's General
    institutions as of March 31, 1999.    Counsel opined that, by statute, the FDIC has the
    Consolidation in the banking          authority to obtain records of unaffiliated service
    industry may present increased        providers and other counterparties. DOS developed
    risks for the FDIC as the deposit     clarifying guidance in its Manual of Examination Policies
    insurer because the deposit           regarding the FDIC's examination and investigation
    insurance funds face larger           authority of third party servicers. Also, DOS updated its
    potential losses from the failure     manual to reinforce the provisions of Section 10 of the
    of a single, large consolidated       FDI Act regarding the empowerment of examiners to
    institution. Since the Corporation    make a thorough examination of all affairs of the bank.
    does not have a presence in           In addition, the manual was revised to require that DOS
    the other 37 institutions, it is      document significant examination obstacles and the
    heavily dependent on the Office       regional offices' resolution of these situations.
    of the Comptroller of the
    Currency, the Board of Governors      As part of our overall assessment of the FDIC's super-
    of the Federal Reserve System,        vision of BestBank, we identified specific instances
    and the Office of Thrift Super-       where DOS could strengthen communication and
    vision to provide the FDIC with       coordination within the Corporation. As a result of our
    the information needed to monitor     recommendations regarding these issues, DOS has
    the insurance risks associated        revised its manual to reiterate the importance of inves-
    with the megabanks. We are            tigating allegations of wrongdoing that may be received
    conducting a review of DOS’s          about an institution and reporting the allegations to the
    efforts to monitor risk at institu-   appropriate offices. In addition, an agreement between
    tions for which the FDIC is not       the OIG, DOS, and the Legal Division was reached
    the primary federal regulator.        regarding the coordination of open financial institution
    Our review is focusing on the         investigative activities.
    backup examination process for
    insured thrifts, national banks,
    and state member banks and
    DOS’s efforts to monitor the
    risks associated with the mega-
    banks. Our goal is to help
    minimize the negative impacts
    on the deposit insurance funds
    in the event one of these institu-
    tions encounters problems or fails.
14




●    Internet Banking: The banking             corrective actions have been          Protecting Consumers’ Rights
     industry is rapidly expanding             implemented and the process
     into the area of Internet banking.        is working as intended by             In addition to safety and soundness
     These banks are also assisting            management.                           issues, the Corporation must deal
     other corporations and businesses                                               with matters related to bank compli-
     in initiating transactions over                                                 ance with laws pertaining to consumer
     the Internet. Growth in Internet                                                protections and civil rights that are
     banking can be attributed in part     Supervising Insured Institutions          equally important in today’s banking
     to the low product or distribution    and Protecting Consumer Interests         environment. A key consideration
     costs characteristic of the                                                     in this regard is the Community
     Internet. Decreased costs allow                                                 Reinvestment Act (CRA), a 1977 law
     participating banks the opportu-      The FDIC is the primary federal regu-     intended to encourage insured banks
     nity to offer improved services       lator for approximately 5,800 financial   and thrifts to meet local credit needs,
     at lower costs to the consumer.       institutions that have assets totaling    including those of low- and moderate-
     However, the principal benefits       nearly $1.3 trillion. In addition, the    income neighborhoods, in a manner
     of Internet banking — its global      FDIC provides supervisory oversight,      consistent with safe and sound oper-
     reach and open architecture —         although not as the primary regulator,    ations. The Congress has mandated
     present significant security and      for about 4,500 financial institutions    that the bank regulatory agencies
     other risks. We are nearing           with total assets over $5.3 trillion.     evaluate institutions’ CRA performance
     completion of a survey to             Although a steady decline in the          and that these evaluations be
     examine the effectiveness of          number of insured institutions is         disclosed to the public.
     the electronic banking examina-       projected over the next 5 years,
     tion procedures that the FDIC         total assets are projected to increase.   Banking laws related to CRA and
     has in place to address evolving      The challenge to the Corporation is       consumer protections have changed
     areas of electronic banking,          to ensure that its system of supervi-     some. The environment in which
     and our particular focus is on        sory controls will identify and effec-    financial institutions operate is evolving
     Internet banking.                     tively address financial institution      rapidly,particularly with the accelera-
                                           activities that are unsafe, unsound,      tion of interstate banking, new
●    DOS’s Risk-Focused                    illegal, or improper before the activi-   banking products, electronic banking,
     Examination Process: We are           ties become a drain on the deposit        and the increase in consumer bank-
     conducting a follow-up review of      insurance funds.                          ruptcy rates. Further, due to the public
     DOS’s risk-focused examination                                                  interest aspect of consumer protec-
     process. Since 1997, the FDIC         In accordance with statutory require-     tions and potential consumer expo-
     has used a risk-focused exami-        ments and corporate policy, DOS           sures, the FDIC has a strong incentive
     nation approach. Rather than          projects starting almost 2,800 safety     for the early detection and correction
     following a standard examination      and soundness examinations in             of problems in institutions, promoting
     program requiring the review          2000. DOS also provides off-site          compliance with consumer protection
     of a large sample of loans, this      analysis for all insured institutions,    laws and regulations, and increasing
     approach requires the examiner        including those for which it is not       public understanding of and confi-
     to first identify and test controls   the primary federal regulator. This       dence in the deposit insurance
     within a bank and then modify         analysis includes reviewing Office        system. The Division of Compliance
     sample selections accordingly.        of the Comptroller of the Currency,       and Consumer Affairs (DCA) projects
     This targeted examination             Office of Thrift Supervision, and         conducting over 2,100 compliance
     approach should focus examina-        Federal Reserve Board examinations        and CRA examinations in 2000,
     tion resources on the greatest        and Securities and Exchange Com-          decreasing to approximately 1,900
     areas of risk in a bank, thus         mission filings. DOS also processes       examinations per year over the next
     increasing effectiveness without      applications for numerous bank            4 years. DCA functions also include
     requiring additional time. The        activities such as new bank proposals,    responding to consumer complaints
     OIG first audited the process         mergers, and change of control            and inquiries. The volume of these
     in 1998 and made recommenda-          requests. Furthermore, DOS initiates      complaints and inquiries is expected
     tions for improvements to             formal enforcement actions and            to decrease from 175,000 in 2000
     management. Our follow-up             informal corrective programs as           to a range of 140,000 to 160,000
     audit will determine whether          a result of its examinations.             within the next 4 years.
                                                                                                                         15




OIG Reviews DOS/DCA Examination           We noted, however, that many of           on information collected manually
Activities                                the working agreements between            from each regional office, this report
                                          the FDIC and state banking depart-        could provide more complete infor-
Integral to the Corporation’s success     ments had not been updated since          mation on DOS’s progress in meeting
is an examination program that iden-      they were originally signed, despite      annual performance goals for safety
tifies problems before they impact        changes in examination frequency          and soundness examinations. DOS
deposit insurance funds, result in        requirements, and that there are some     agreed to implement the OIG’s
non-compliance with consumer              cases where written agreements did        recommendations to address these
protection and fair lending laws, or      not exist between the FDIC and a          concerns.
affect performance under the CRA.         state banking department. To maintain
                                          close supervisory cooperation and to      DCA’s 1999 Examination Workload
During the reporting period, the          achieve optimal supervisory efficiency,   Based on our review of DCA’s 1999
OIG focused efforts on key activities     we believe that the FDIC should           estimated workload, we believe DCA
related to the Corporation’s examina-     maintain current, written agreements      can accomplish its 1999 examination
tion responsibilities. One of our         with all state banking departments.       workload requirements. Assuming
reviews examined the Corporation’s        We made two recommendations to            that there will be no major unsched-
obligation to conduct full-scope safety   address these issues, and the Corpora-    uled events during 1999, we believe
and soundness examinations of             tion agreed to take needed actions.       that DCA will be able to fulfill the
all insured depository institutions or                                              FDIC Chairman’s mandate that all
to rely on state supervisory authori-     DOS’s 1999 Examination Workload           1999 scheduled compliance and CRA
ties to conduct such examinations.        Based on our review of data that DOS      examinations and visitations, including
Another related review analyzed           provided us, we believe DOS can           1998 delinquencies, be conducted
DOS’s 1999 Examination Workload.          accomplish its 1999 examination work-     as of this year’s end.
A third review was done to examine        load requirements. Assuming that
DCA’s ability to conduct all of the       there will be no major unscheduled        During this review we also observed
compliance and CRA examinations           events during 1999, we believe that       103 instances for 1998 and 130
scheduled for calendar year 1999.         DOS will be able to fulfill the FDIC      instances for the first quarter of
Results of these reviews are              Chairman’s mandate that all statutory     1999 in which CRA examinations
summarized below.                         safety and soundness examinations         were not included in the appropriate
                                          (including 1998 delinquencies) be         advance quarterly examination sched-
Reliance on State Examinations            conducted, as well as the Y2K             ule, which is used to provide written
We determined that DOS has an             examinations and associated follow-       public notification as required by the
adequate process for relying on state     up reviews.                               CRA regulation. As a result, the FDIC
examinations. Each state examination                                                has not afforded community groups
report is reviewed to ensure that         We noted that DOS officials planned       the opportunity to provide timely
risks to the deposit insurance funds      to ensure that the statutory safety       comments on each of these banks’
have been identified and that appro-      and soundness examinations that are       performance. We made recommen-
priate corrective measures are taken.     part of the FDIC’s cycle for 1999, as     dations to address this concern, and
In addition, cooperative working          well as the FDIC’s 1998 delinquencies,    corporate officials agreed to take
agreements entered into by the            would be conducted. However,              corrective action.
FDIC and state banking departments        DOS could not ensure that the state
appear to have improved supervisory       banking agencies’ share of the            The OIG will continue to monitor both
efficiencies and reduced regulatory       statutory examination workload            DOS’s and DCA’s progress in meeting
burdens on the banking industry since     would be conducted.                       workload objectives for the remainder
the FDIC alternates examinations                                                    of 1999. The OIG is also conducting
with most state banking departments.      Also, DOS does not have a system          a review to evaluate the adequacy
The FDIC coordinates closely with         that provides DOS headquarters            and reliability of the information sys-
state banking departments through         with current information pertaining       tems and data supporting the FDIC’s
the use of working agreements.            to the number of statutory examina-       performance reporting of compliance
According to DOS regional manage-         tions required for each calendar year     and CRA examinations and community
ment officials and officials at the       or a means to monitor the status          affairs and outreach activities. (See
Conference of State Bank Supervisors,     of those required examinations.           Establishing Goals and Measuring
the majority of these agreements          While DOS does produce a quarterly        Results discussed later in the Major
work well.                                examination delinquency report based      Issues section.)
16




Maximizing Returns                          $3.3 Million in Abandoned Assets           loans to obtain the greatest financial
from Failed Institutions                    Held by States’ Unclaimed                  benefit, receivership loans are pooled
                                            Property Agencies                          together as collateral to back securi-
                                            The OIG identified 3,945 accounts          ties sold to investors in the secondary
The FDIC is charged with minimizing         totaling about $3.3 million belonging      market. This process results in
the negative financial effects of failing   to the FDIC or its receiverships that      mortgage-backed securities, or pass-
and failed insured depository institu-      were being held by California and          through certificates.
tions in its receivership management        Florida’s unclaimed property agencies.
program. The focus is on four areas:        We also identified 33 other accounts       The FDIC assumed 42 equity part-
resolving institutions in the least         being held by those two states             nerships (which does not include
costly manner, managing and market-         consisting of securities, contents of      the Judgments, Deficiencies, and
ing failed institutions’ assets to maxi-    safe deposit boxes, or unidentified        Charge- offs Program) with assets
mize return, pursuing monies due to         assets. In addition, out of 24 states      having an original book value of
the failed institutions, and resolving      (other than California and Florida)        $9 billion from the RTC. As of
debts of the institutions fairly. Because   that we reviewed, 23 of them were          May 31, 1999, the FDIC reported
of the decline in the number of prob-       also holding assets belonging to           that 36 equity partnership agree-
lem banks and, therefore, the need          the FDIC or its receiverships. We          ments with assets having a book
for resolutions, the areas of asset         recommended that the Corporation           value of $587 million remained in its
management and disposition become           recover the identified $3.3 million        inventory. Underlying assets include
greater concerns.                           in California and Florida as well as       sub- and non-performing mortgage
                                            identify and recover FDIC assets           loans and owned real estate. The
As of January 1, 1999, the FDIC held        held by other states’ unclaimed            Corporation has a limited ownership
assets for liquidation that totaled         property agencies. The Corporation         interest in the equity partnerships,
$2.4 billion (rounded) in book value.       also needs to clarify roles and            which are set up so that the private-
DRR noted in its mid-year 1999              responsibilities among its pertinent       sector party that holds the general
activity report that during the 6-month     divisions under the FDIC’s finders         ownership interest is responsible
period ending June 30, 1999, total          fee program.                               for disposing of the assets. During
receivership assets managed by the                                                     the current reporting period we
Corporation declined from $2.4 billion      Guarding the FDIC’s Stake                  completed four audits that focused
to $1.6 billion (rounded), a reduction      in Securitizations and Equity              on the roles, responsibilities, and
of approximately 35 percent. Although       Partnerships                               effectiveness of servicers, trustees,
the current and projected asset work-       The OIG’s aim is to help ensure that       and the FDIC in certain securitizations
load is far below the $165 billion          the FDIC’s interests in securitizations    and an equity partnership. These
held by the FDIC and Resolution             and equity partnerships are adequately     audits resulted in questioned costs
Trust Corporation (RTC) in 1992,            protected and that the related entities    of $1.9 million.
effectively managing assets to ensure       are performing appropriately under
their timely, efficient resolution at       the various agreements.                    Future audits will further review the
the least cost to the insurance fund                                                   abandoned assets issue discussed
remains one of the FDIC’s priorities.       The FDIC inherited a total of 72 secu-     above and other issues relating to
                                            ritization transactions with an initial    the period of the RTC/FDIC merger
                                            total reserve fund balance of $7.8 bil-    to determine which items may have
                                            lion from the RTC at its sunset date.      been overlooked at that time and
OIG Work Results in Questioned              As of September 25, 1999, the FDIC         remain unresolved. As more fully
Costs and Joint Investigative Cases         reported that 44 active securitizations    discussed later in this report, in
That May Recover Millions of Dollars        (down from 54 as of March 25, 1999,        keeping with the spirit of the Govern-
                                            a decrease of 18 percent) with a           ment Performance and Results Act,
During this reporting period, the           reserve fund balance of $2.3 billion       OIG work is also intended to aid
OIG performed work in several areas         (down 30 percent from $3.3 billion         DRR in accomplishing its goals
that may yield substantial recoveries.      as of March 25, 1999) remained in          regarding strengthening its oversight
These areas include abandoned               its inventory. A securitization involves   of securitization transactions as
assets, securitizations and equity          selling securities that are primarily      well as policies and procedures for
partnerships, and pursuing criminal         collateralized by various types of         processing receivership claims,
activity related to collecting debts        real estate loans to investors. In an      as outlined in its strategic plan.
owed to the FDIC.                           effort to rapidly sell large amounts of
                                                                                                                            17




OIG’s Office of Investigations                strengthen OIG/DRR cooperation.          OIG’s Information Technology Work
Increases Efforts to Pursue Criminal          Meetings were held with DRR man-
Activity Related to Collecting Debts          agement in Hartford, Connecticut,        The OIG’s work in the IT area is con-
Owed to the FDIC                              and Dallas, Texas, and procedures        ducted with a view toward the goals
The OIG has increased its efforts to          were established for regular             the Corporation is trying to achieve.
work with DRR by investigating crim-          exchanges of data with DRR head-         As discussed earlier, a principal focus
inal activity involving court-ordered         quarters management. Although the        of our work related to IT has been
restitution and other debts that are          results of these new efforts are not     in connection with the Corporation’s
owed to the FDIC as a result of the           yet fully realized, the OIG and DRR      Y2K efforts. Our other IT work
takeover of failed banks and thrifts.         have already seen positive results.      generally focuses on systems devel-
As noted in previous semiannual               Since June 1999, the OIG has opened      opment efforts; specific application
reports, the court-ordered restitution,       seven new cases that are being           reviews; computer services and
originally estimated at $1.2 billion,         coordinated with DRR and involve         security; and planning, procurement,
is the result of criminal convictions         a total of almost $10 million in out-    and administration. During the report-
stemming from schemes to defraud              standing restitution orders or other     ing period, we issued the results of
federally insured institutions that           types of debt.                           work in several of these areas, as
have resulted in losses to the FDIC.                                                   described below.
As of September 30, 1999, a total of
$1.1 billion is due as a result of out-                                                Personnel Action Processing
standing criminal restitution orders.         Managing Information Technology          Controls and Security
                                                                                       We completed an audit of controls
Additionally, the FDIC is continuing                                                   and security over personnel action
to attempt to collect debts it is owed        According to the Corporation’s           processing, an activity that includes
as a result of loans originated by            Information Technology (IT) Strategic    the management of comprehensive
financial institutions prior to their fail-   Plan for 1998-2003, IT is critical to    data files on individual employees.
ure. The OIG’s investigative work in          the Corporation’s success and can        These data originate from numerous
these cases is based on indications           be leveraged to support its business     events that an individual experiences
that the debtors may have made false          goals. The Corporation is focusing its   during his/her employment with the
statements concerning their assets            efforts on key business processes        federal government, such as organi-
or their ability to pay. Some of these        that are most fundamental to the         zational changes and changes in pay
cases involve elaborate schemes               Corporation’s success and is working     and benefits. An employee’s record
to conceal assets, including illegal          to improve these processes. At the       may include over 100 data elements,
transfers to others. They also                same time, it is seeking to identify     and the integrity of this data must
involve, in some instances, the filing        where and how technology can be          be preserved over the employee’s
of fraudulent bankruptcies to avoid           used to support these efforts and        federal government career.
payment. The OIG’s participation              better support the Corporation and
in pursuing the criminal aspects of           its customers.                           We concluded that although the
these matters offers investigative                                                     Division of Administration (DOA)
techniques not otherwise available            The Strategic Plan contains six          had developed and implemented
to DRR, such as the serving of sub-           key goals in the IT area: Improve        a number of processes to enhance
poenas, surveillance, the execution           Customer Satisfaction with Applica-      data integrity, improvements could
of search warrants, and interviewing          tion Systems; Reduce Corporate           be made in documenting and review-
of various subjects.                          Costs Through the Use of Technology;     ing certain types of personnel actions.
                                              Manage Information for the Corpora-      We also concluded that DOA needed
In an effort to enhance coordination          tion; Provide an IT Infrastructure       additional procedures, processes,
with DRR and other FDIC divisions             That Works Everywhere, All the           and controls to more fully protect
and offices, the OIG’s Office of              Time; Improve the Efficiency and         the personnel database files from
Investigations designated a senior            Effectiveness of IT Management;          inappropriate changes. Additionally,
staff member to serve in a newly              and Fix the Year 2000 Problem.           DIRM and DOA need to improve
created position as Program Manager           Accomplishing these goals efficiently    access controls for the related pro-
to act as the liaison with DRR in             and effectively requires significant     cessing systems to better prevent
June 1999. During the current                 expenditures of funds and wise           unauthorized access to sensitive
reporting period, the new Program             decision-making and oversight on         data and to enhance controls through
Manager spearheaded an initiative to          the part of FDIC managers.               separation of incompatible duties.
18




As a result of the audit, the OIG
recommended that the Director, DOA,
develop certain control procedures,
more closely limit who can access
personnel - related information sys-
tems, and limit the available system
options. Other issues regarding the
Personnel Action Request System’s
system — level security were com-
municated to DIRM during the audit.
DIRM took action to address those
issues prior to issuance of the
draft audit report. The Corporation’s
responses and a subsequent meet-                We have provided input to the Corporation
ing with DOA personnel provided                 on IT matters in a number of ways other
us with the requisite elements                  than through the issuance of formal reports.
of a management decision for all
recommendations.                                Among IT-related services we provided
                                                are the following:
OIG Reviews DIRM Service                  ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ● ●


Contract Activities
The Corporation’s IT program activities    ■    Communicated with DIRM                                                                 ■    Provided input on the pilot Bid
include the development, operation,             regarding several information                                                               Information System based on a
enhancement, and maintenance of
                                                security issues, which include                                                              review of the Application Security
the FDIC’s automated information
systems. Effective and efficient                providing views on DIRM's                                                                   Plan. As part of this effort, we
acquisition of IT resources is critical         process to ensure that changing                                                             worked with DRR personnel and
to the success of the FDIC’s IT                 contractor passwords are secure                                                             DIRM's security group on estab-
program. DIRM has the authority                 and suggesting improvements to                                                              lishing guidelines for the security
and responsibility for coordinating
                                                ensure secure storage of sensi-                                                             of an Internet Web site that DRR
the acquisition of IT resources and
for the oversight of IT-related con-            tive DOS data in a field office.                                                            wanted to use to provide due
tracts. These resources include                                                                                                             diligence information to contrac-
Personal Computer/Local Area                                                                                                                tors wanting to bid on DRR
Network equipment, packaged soft-                                                                                                           contracts.
ware and maintenance, data center
management, development of new
application systems, maintenance
of existing application systems, and
the FDIC’s technical infrastructure.

Between January 1, 1996 and
December 31, 1998, the FDIC paid
over $283 million to DIRM service
contractors. This figure is exclusive
of payments related to the acquisition
of IT goods, including hardware and
commercial off-the-shelf software
products. Expenditures to DIRM
service contractors were $74 million
in 1996, $90 million in 1997, and
over $118 million in 1998.
                                                                                                                         19




                                        During the reporting period, we             ensure that contracts are properly
                                        completed an audit of the award             classified and closed out timely and
                                        and administration of DIRM service          background investigation checks are
                                        contracts. Our review focused on            performed on DIRM contractors.
                                        DIRM service contracts because
                                        of the increasingly significant             The Corporation executed the 19
                                        investment that the FDIC has made           contracts in our sample in accordance
                                        in the use of these resources over          with the policies and procedures
                                        the past several years. Manage-             contained in the Acquisition Policy
                                        ment’s actions in response to our           Manual and, in the case of large,
                                        report will strengthen controls over        complex IT Multiple Award Schedule
                                        the contracts.                              contracts, even went beyond the
                                                                                    procurement policies and procedures
                                        At the time of our review, 291 DIRM         that other federal agencies are
                                        service contracts were open at head-        required to follow. However, to
                                        quarters. The 19 contracts selected         improve competition for acquiring
                                        for our audit totaled $96.2 million         large service contracts, we reported
                                        and represented approximately               that it would be in the Corporation’s
                                        31 percent of the $314.2 million in         best interest to take existing controls
                                        headquarters DIRM service contracts         a step further. We recommended
                                        that were listed as open as of              ways to increase the numbers of
■   Addressed System Development        July 14, 1998.                              bidders solicited; involve a source
    Life Cycle (SDLC) issues that                                                   selection official; expand member-
                                        Our audit identified opportunities          ship on technical evaluation panels;
    included providing suggestions
                                        for the FDIC to strengthen controls         establish more reasonable time-
    to DOA on improvements that         to help ensure that DIRM service            frames for the submission of bids;
    could be made to the FDIC's         contract requirements are satisfied         and seek alternative methods of
    SDLC Manual and issuing a           in a cost-effective manner. Contract        encouraging minority and women-
    memorandum on the need to           statements of work should more              owned business participation. Taken
                                        fully define or provide details on the      together, these actions should
    improve the process for updat-
                                        tasks, requirements, and deliverables       improve competition and will better
    ing the cost benefit analysis for   expected of the successful offerors.        provide the control of segregation of
    the Electronic Travel Voucher       Additionally, task assignments after        responsibilities between the Office
    Processing System.                  award could be used more effectively        of Contracts and the program office
                                        to describe the services required,          during key phases of contract award
                                        deliverables, costs, and delivery dates.    and administration.
                                        Better specifying the Corporation’s
                                        contracting needs would serve to            With respect to controls over
                                        lessen the FDIC’s reliance on con-          contractor billings, our review of a
                                        tractors to define contract require-        selected invoice for each of the 19
                                        ments and deliverables through              contracts in our sample showed that
                                        project work plans that they produce        invoices were properly supported
                                        after the contract is awarded. Other        and were within the scope of the
                                        added cost controls would be for DOA        contract.
                                        to clarify its existing policy related to
                                        contract modifications that increase
                                        the value and scope of contracts
                                        after award and develop the ability
                                        to monitor expenditure authority
                                        through the FDIC’s Purchase Order
                                        System when the value of contracts
                                        varies from limits established in
                                        the Acquisition Policy Manual. The
                                        Corporation also needs to better
20




                                                             Ensuring Sound Controls and
                                                             Oversight of Contracting Activities

                                                             Despite a decline in the number of
                                                             contracts, the FDIC continues to rely
                                                             on private-sector contractors to
                                                             accomplish its mission. In all areas
                                                             where contractors are involved, the
                                                             Corporation must ensure that it is
                                                             receiving the services it is paying for
                                                             and that it has sufficient controls over
                                                             contractor billings to help prevent
                                                             fraud and abuse. The Corporation
 OIG Addresses Task Assignment                               must also guard against finding itself
 OIG
 IssueAddresses Task Assignment Issue                        in a position where it cannot pursue
                                                             claims against contractors because
                                                             of lapses in its own oversight of
 In two recent audits, issues were raised with respect to    their activities.
 contracting through the use of task assignments. As a       Contractors assist the FDIC in many
 contracting vehicle, task assignments are used when it is   areas, including legal matters, property
 desirable for an FDIC contract oversight manager to have    management, loan servicing, asset
                                                             management, information technology,
 discretion in choosing the timing and scope of deliver-     and financial services. Projections of
 ables under a contract. While contracts are awarded by      year 2000 non-legal contract awards
 contracting officers through formal acquisition channels,   and purchases total 4,100 actions
                                                             valued at approximately $260 million.
 task assignments are issued by oversight managers.
                                                             As discussed in the previous section
 Under these procedures, the FDIC contracting officer may    of this report, one of the most active
 not be able to maintain the requisite control over the      areas of contracting in the Corporation
 contract as envisioned in the FDIC's Acquisition Policy     regards information technology. As
                                                             of September 30, 1999, there were
 Manual. Discussions between the OIG and the                 more than 300 active information
 Corporation on these issues have resulted in an agree-      resources management contracts
 ment to revise the Acquisition Policy Manual to better      valued at approximately $350 million
                                                             that had been awarded in headquar-
 define the appropriate uses of task assignments.            ters. Approximately $65 million of
                                                             this expenditure authority for active
                                                             contracts had been spent and $285
                                                             million remained to be used. Also,
                                                             the FDIC’s Legal Division projects
                                                             that almost $37 million will be paid
                                                             to outside law firms in 1999 and
                                                             approximately $28 million is budgeted
                                                             for the year 2000.

                                                             The OIG continues to focus resources
                                                             on auditing contracts and agreements.
                                                             In this reporting period, the OIG
                                                             audited contracts related to environ-
                                                             mental testing, bulk sales evaluation
                                                             services, and legal billing. (See also
                                                             DIRM Service Contracts issues
                                                             discussed previously.)
                                                                                                                            21




Audits of Kenneth Leventhal’s               With the issuance of these last seven     to conserve and replenish the institu-
Billings Result in Nearly $4 Million        reports, the OIG’s concentrated effort    tional knowledge and expertise that
in Questioned Costs                         to audit outside counsel legal fees       has guided the organization until
                                            for resolving the RTC and FDIC            now.
We audited billings for two Kenneth         receiverships of the early 1990s is
Leventhal due diligence contracts this      complete. According to the FDIC’s         The Corporation continues to experi-
reporting period, which resulted in         Legal Division, the FDIC received         ence organizational change at the
questioned costs of almost $4 million       total recoveries of $10.7 million from    highest levels. On May 18, 1999,
for charges that were either not in         1991 through September 30, 1999           Chairman Tanoue announced appoint-
accordance with the terms of the            from both RTC and FDIC legal fee          ments to the following corporate
contract or adequately supported.           bill audit reports.                       positions: Chief Financial Officer;
Over the past 2 years, the OIG                                                        Directors of DOA, DCA, the Division
has performed four audits of                                                          of Finance, and the Office of Diversity
Kenneth Leventhal billings under                                                      and Economic Opportunity. More
five separate securitization contracts.                                               recently, the Corporation’s Chief
                                            Operating Effectively
For these five, we audited a total of                                                 Operating Officer left the FDIC and
                                            in a Changing Environment
about $23 million and questioned over                                                 the Director of DRR was named as
$10 million, or approximately 44 per-                                                 his successor. DRR is now operating
cent. The majority of the questioned        Since 1994, as the work emanating         under the direction of an Acting
costs were due to billings for additional   from the banking and thrift crises has    Director.
hourly labor fees for unauthorized          declined and continued consolidation
tasks and required tasks covered by         of the financial services industry has    These new appointments serve
the not-to-exceed caps per loan.            occurred, the FDIC has accordingly        to provide more stability in senior
                                            reduced its workforce substantially.      management. Still, given the down-
                                            The workforce has fallen from a high      sizing, relocations, and organizational
                                            of about 15,600 in mid-1993 to 7,326      changes and corresponding new
OIG Reviews Remaining                       as of September 25, 1999. In addition     leadership, the Corporation’s senior
Legal Fee Bills                             to reductions in the size of the work-    management team will continue to
                                            force, as the Corporation’s needs         confront challenges in performing
We have conducted many audits of            have changed, employees have been         the corporate mission and responding
legal fee bills that were submitted         relocated to best serve those chang-      to any emerging problems in the
by firms doing business for both            ing needs. The FDIC relocated a total     financial services industry.
the RTC and FDIC. These audits are          of 1,779 employees during the period
done to ensure that firms adhere to         of 1996 through 1998.                     The Corporation has included as a
the legal services agreements’ billing                                                1999 corporate annual performance
requirements and that the FDIC              At the same time, the FDIC has            goal developing a strategy to ensure
pays only for allowed and supported         addressed staffing shortages in certain   that a new generation of managers
fees and expenses. We have worked           critical skill areas owing to the loss    and senior professionals will assume
closely with the Legal Division             of such a high number of staff and        leadership positions in the FDIC.
throughout this effort.                     strict prohibitions on hiring from 1992   Additionally, the Corporation’s Diversity
                                            through 1997. Additionally, through       Strategic Plan is designed to directly
As of September 30, 1999, the RTC           the use of employee buyouts, early        address the challenge of “institutional
and FDIC OIGs have issued a total           retirements, and other downsizing         knowledge and expertise,” as
of more than 300 legal fee bill audit       activities, the Corporation has lost      discussed in the following pages.
reports with questioned costs totaling      a number of highly experienced
almost $38 million. Risks to the FDIC       managers and senior technical
remain even though the number of            experts. The Corporation predicts
contracts in this area has declined.        that approximately one of every six
We issued seven reports on legal fee        remaining FDIC employees will be
bill audits and questioned a total of       eligible to retire in the next 5 years.
$253,560 during the current reporting       This number includes a dispropor-
period. Management agreed to                tionate number of senior managers
disallow $79,648 (31 percent) of            and professionals in most divisions
that amount.                                and offices. The Corporation needs
22




                  together
                     to be the
                                                                   to be the


                                                                                    The FDIC’s Diverse Workforce

                                                                                    The Corporation continues to address
                                                                                    the organizational challenge of
                                                                                    diversity. It established the following
                                                                                    corporate definition of diversity:


                                                             Diversity is about who we are as individuals,
                                                             both differences and similarities. The Corporation
                                                             recognizes that its strength comes from the dedication,
                                                             experience, and diversity of its employees and believes
                                                             that, given the opportunity, each employee can make
                                                             a difference. The FDIC is committed to promoting
                                                             and supporting an inclusive environment that provides
                                                             to all employees, individually and collectively, the
                                                             chance to work to their full potential in pursuit of the
                                                             Corporation’s mission.

                                                                                    The Board of Directors approved the
                                                                                    Corporation’s first Diversity Strategic
                                                                                    Plan on May 25, 1999. As stated
                                                                                    in the Chairman’s July 16, 1999
                                                                                    letter included in the plan, “For the
                                                                                    Corporation to continue to be success-
                                                                                    ful, we must retain and recruit the
                                                                                    most qualified and most motivated
                                                                                    employees we can.” The goals
                                                                                    in the plan address this challenge
                                                                                    and reinforce the commitment to
                                                                                    diversity.

                                                                                    The Corporation has also undertaken
                                                                                    a number of other actions to promote
                                                                                    diversity, including the creation of a
                                                                                    diversity Web site, comprehensive
                                                                                    training for every FDIC employee,
                                                                                    and dissemination of promotional
                                                                                    literature and posters that capture
                                                                                    the spirit of the FDIC’s diversity
                                                                                    motto, “Working Together To
                                                                                    Be the Best.”
     The OIG‘s intern program brings new talent to the office.
     Seated l-r: C. Pollard, T. Garner, N. Wilson, S. Watson                        The diversity plan serves as the long-
     Standing l-r: Coordinator, D. Wheatley-Walker,                                 term blueprint for the implementation
                                                                                    of diversity initiatives. The Corporation
     J. Tillery, N. Cross, D. Toxie, J. Brennan, A. Milne,
                                                                                    must continue to monitor its progress
     Co-coordinator, J. Hoyle                                                       in implementing the plan and work
     Missing from photo: C. Veasey, M. Sebestyen                                    to ensure that it cultivates an
                                                                                    environment that adheres to its
                                                                                    corporate definition of diversity.
                                                                                                                          23




OIG Reviews Focus on FDIC’s               Additionally, we reported that a            the program. Copiers are an important
Changing Environment                      broader-based lump sum payment              tool that every FDIC employee needs
                                          allowance made sense for the                to carry out corporate operations
The OIG is committed to conducting        FDIC for several reasons, including:        and activities. As a result of the
work that is relevant to the ever-        (1) the lump sum payment approach           combined efforts of these offices,
changing work environment at the          has been overwhelmingly endorsed            every employee in headquarters
FDIC. Several of our reviews during       by most organizations that have             and in the Dallas and San Francisco
the reporting period attest to our goal   implemented such programs,                  regional offices will be provided
of enhancing corporate operations         (2) the employees at such organiza-         enhanced copier services that will
and seeking cost-saving opportunities     tions are satisfied with the approach,      allow them to do their work more
for the FDIC.                             and (3) there is the potential for          efficiently and effectively.
                                          reduced costs and administrative
FDIC’s Relocation Program                 requirements. With regard to reduced        DOA staff had previously reviewed
The OIG initiated an evaluation of        costs, we estimated potential               headquarters copier usage and
the FDIC’s Relocation Program, which      administrative cost savings of              determined that many copiers were
is administered by the Division of        about $400,000 per year based on            being underutilized. As a result,
Finance (DOF), at the suggestion          a reduction of the vouchers requiring       DOA’s Acquisition and Corporate
of the Chief Operating Officer.           processing. We suggested that               Services Branch (ACSB) reduced
Our review showed that the FDIC’s         DOF consider implementing a lump            the Corporation’s copier inventory.
relocation benefits were generally        sum payment program that expands            ACSB also asked the OIG to conduct
comparable to those of other Financial    beyond what the FDIC’s current              a more in-depth analysis and make
Institutions Reform, Recovery and         lump sum relocation allowance               recommendations to improve the
Enforcement Act agencies, the             is intended to cover.                       cost efficiency of the program.
Federal Reserve Board, and the
Federal Travel Regulation. With           As a result of our suggestion, DOF is       The OIG’s analysis showed that
respect to two benefits, temporary        evaluating policy options for a Lump        FDIC convenience copiers, production
living expenses and the Miscellaneous     Sum Program. To evaluate those              copiers, and color copiers were
Expense Allowance (MEA), the FDIC’s       options, DOF initiated a project to         significantly underutilized, the FDIC
policy is significantly more generous.    record detailed information about           was paying too much for copiers on
We estimated that the FDIC would          the benefits paid for the past 2 years.     a per copy basis, and other lease and
have reduced 1998 relocation costs        At DOF’s request, we are verifying          ownership and staffing alternatives
by $1.3 million to $2 million for         the accuracy of that data to ensure         existed that could potentially save
temporary living expenses, and by         that it provides a valid basis for making   the FDIC millions of dollars. The
$1.5 million to $1.7 million for MEAs,    decisions and to provide assurance          OIG has issued a series of reports
if its policy was consistent with the     that the data being used to propose         detailing the results of its analysis.
other agencies.                           relocation benefit options is credible.
                                                                                      DOA agreed with the conclusions
We suggested that DOF study the           OIG and DOA Address FDIC Copier             of the OIG reports and has moved
bases for temporary living expenses       Administration Program                      promptly to use this information to
and MEA benefits being significantly      As work responsibilities, staffing,         plan and implement a more economi-
more generous and determine               and workloads change, it is good            cal and effectively managed copier
whether the bases remain valid.           business practice for an organization       service program while sustaining
DOF agreed and has already begun          to reexamine the use of its resources       an acceptable level of service. As
a study of the intent of the tempo-       such as computers, printers, phones,        a result of the information and
rary living expenses and the MEA          copiers, and facsimile machines to          recommendations received from
benefits. This preliminary work will      ensure that funds for such equipment        the OIG, DOA began implementing
be leading to a more complete analy-      are wisely spent. During the reporting      program changes concurrent with
sis of the relocation benefits that are   period, the OIG and DOA partnered           the review. Some of the more
actually used by relocating employees     to make significant changes to the          significant changes involve
and associated cost data. The FDIC        Corporation’s copier administration
will thus be able to determine whether    program. These changes could ulti-          ●   Adding staff with copier experi-
changes should be made to current         mately result in $9 million in savings          ence and management analysis
benefits and identify any monetary        for the Corporation and will also               to oversee the daily operation
benefits that would result.               enhance management controls over                of the copier program;
24




●    Working to more consistently           (For additional information on this      in this semiannual report. As required
     collect and track information on       study, please see the OIG Organization   by the Results Act, the Corporation
     copier usage and consolidating         section of this semiannual report.)      must submit its initial program
     the administrative records of                                                   performance report to the President
     equipment tracking, fees, and                                                   and the Congress no later than
     service calls for better oversight;                                             March 31, 2000.
                                            Establishing Goals
●    Developing a Rightsizing Plan          and Measuring Results                    The Corporation has made significant
     for all headquarters copiers to                                                 progress in implementing the Results
     better align the types and place-                                               Act and will continue to address
     ment of copier equipment to            The Government Performance and           the challenges of developing more
     copying demand;                        Results Act (Results Act) of 1993        outcome-oriented performance
                                            was enacted to improve the efficiency,   measures, linking performance goals
●    Engaging the Department of              effectiveness, and accountability of    and budgetary resources, and estab-
     Treasury’s Franchise Business          federal programs by establishing a       lishing processes to verify and validate
     Activity Group under an inter-         system for setting goals, measuring      reported performance data. The FDIC
     agency agreement to evaluate           performance, and reporting on            is committed to fulfilling both the
     copier capacity requirements for       accomplishments. Specifically, the       requirements of the Results Act and
     all FDIC headquarters offices          Results Act requires most federal        congressional expectations that the
     and to provide the copier equip-       agencies, including the FDIC, to         plans clearly inform the Congress
     ment for those offices; and            prepare a strategic plan that broadly    and the public of the performance
                                            defines the agencies’ mission and        goals for the FDIC’s major programs
●    Working with regional office           vision, an annual performance plan       and activities, including how the
     staff to achieve additional savings    that translates the vision and goals     agency will accomplish its goals
     based on contract alternatives         of the strategic plan into measurable    and measure the results. The FDIC’s
     provided by the OIG.                   objectives, and an annual performance    2000 Annual Performance Plan
                                            report that compares actual results      is being drafted by management
DOA and the OIG worked coopera-             against planned goals.                   and will be provided to the Office
tively to improve corporate operations.                                              of Management and Budget in
DOA surfaced an issue and took the          The Corporation’s strategic plan         November 1999.
initiative to ask the OIG for assistance.   and annual performance plan lay out
The two divisions arrived at mutually       the agency’s mission and vision and
agreeable solutions in a timely fashion     articulate goals and objectives for
and are working together to implement       the FDIC’s three major program areas:    OIG Formulates Results Act
actions that will ultimately save the       Insurance, Supervision, and Receiver-    Review Plan
Corporation millions of dollars and         ship Management. The plans focus
improve the quality and controls            on four strategic results that define    On October 7,1998, the Congressional
of the copier program.                      desired outcomes identified for each     House Leadership sent a letter to
                                            program area. The four strategic         the Inspectors General of agencies
OIG Addresses Diversity Through             results are: (1) Insured Depositors      directly subject to the Chief Financial
Internal Study                              Are Protected from Loss Without          Officers (CFO) Act requesting that
As reported in our last semiannual          Recourse to Taxpayer Funding,            they develop and implement a plan
report, our office undertook a study        (2) Insured Depository Institutions      for reviewing their agencies’ Results
of diversity in the OIG for submission      Are Safe and Sound, (3) Consumers’       Act activities. The Results Act review
to the House Subcommittee on                Rights Are Protected and FDIC-           plan would be submitted as part of
Veterans’ Affairs, Housing and Urban        Supervised Institutions Invest in        the OIG’s semiannual reports to
Development, and Independent                Their Communities, and (4) Recovery      the Congress (and updated at least
Agencies, Committee on Appropri-            to Creditors of Receiverships Is         annually thereafter) and would
ations. We initiated this study in          Achieved. Through its annual perfor-     examine (1) agency efforts to develop
response to language contained in the       mance reports, the FDIC will be          and use performance measures
Subcommittee’s report on the fiscal         accountable for reporting actual         for determining progress toward
year 1999 appropriation. We submit-         performance and achieving these          achieving performance goals and
ted our report on June 9, 1999 and          strategic results, which are closely     program outcomes described in
shared it with OIG staff at that time.      linked to the major issues discussed     their annual performance plan and
                                                                                                                        25




                                          strategicgoals...
(2) verification and validation of           and data supporting FDIC               ●   In a survey of activities of the
selected data sources and informa-           performance reports. The OIG               Kansas City Region’s DCA, we
tion collection and accounting systems       has developed a standard work              identified two Results Act-related
that support Results Act plans and           program to conduct these                   matters. The first pertained to
reports. Findings and recommenda-            evaluations.                               suggesting that with respect
tions from Results Act reviews would                                                    to consumer complaints and
be included in each subsequent           ●   Advisory Comments. We will                 inquiries, DCA establish goals
semiannual report. The Congress              continue our practice of providing         with quantifiable, measurable
attaches great importance to effective       advisory comments to the                   targets to better assess annual
implementation of the Results Act            Corporation regarding their update         achievements. A second concern
and believes that Inspectors General         or cyclical preparation of strategic       related to DCA’s method for
have an important role to play in            and annual performance plans               measuring and reporting on its
informing agency heads and the               and reports.                               own responses to consumer
Congress on a wide range of issues                                                      complaints and inquiries.
concerning efforts to implement the      Several examples of OIG results
Results Act.                             during the reporting period that are       As part of our program of targeted
                                         linked to Result Act issues and            data verification reviews, we are
The FDIC OIG is fully committed          concepts follow:                           currently evaluating the adequacy
to taking an active role in the                                                     and reliability of the information
Corporation’s implementation of the      ●   The OIG identified the need to         systems and data supporting the
Results Act. Although the FDIC is            improve controls over DRR’s            FDIC’s performance reporting of
not an agency subject to the CFO             process for refunding amounts          compliance and CRA examinations
Act, we have developed the following         to reserve funds for securitization    and community affairs and outreach
Results Act review plan.                     transactions. DRR established          activities. Our review involves
                                             a plan to enhance controls and         (1) confirming the reported compliance
OIG’s Results Act Review Plan                prevent errors. This plan should       and CRA examinations started, banker
Our plan consists of three integrated        assist DRR in meeting its 1999         outreach and education activities
strategies designed to help ensure           annual performance goals related       conducted, and presentations made
that the Corporation satisfies the           to strengthening oversight             to and meetings held with banker
requirements of the Results Act              methodologies for securitization       and community/industry groups and
and has systems in place to reliably         transactions and strengthening         (2) performing necessary work to
measure its progress toward achieving        policies and procedures for            assess the reliability of the system
its strategic and annual performance         processing receivership claims.        of record and the data supporting
goals:                                                                              the reported performance results.
                                         ●   In our audit of DOS’s 1999             This review will be completed and
●   Linking Planned Reviews to               examination workload, we               its results reported in the next
    the Results Act. We will link            recommended that regional              semiannual period.
    planned reviews to corporate             offices provide periodic reports
    strategic goals and objectives           to DOS headquarters indicating         The OIG will also review the FDIC’s
    and annual performance goals             the status of meeting statutory        2000 Performance Plan that is
    and provide appropriate Results          safety and soundness examina-          currently being revised and updated
    Act coverage through audits              tion schedules, including the          as part of the annual planning cycle
    and evaluations. As part of this         number of examinations due             and will provide comments to FDIC
    strategy, the OIG has established        each year and the progress             management regarding the plan’s
    specific goals in its own annual         in starting and completing             conformance with the Results Act.
    performance plan to link OIG             examinations due each quarter.         We also plan to review and provide
    reviews to corporate strategic           These reports will provide             comments to FDIC management on
    goals.                                   management a valuable tool             the preparation of the Corporation’s
                                             for measuring and monitoring           initial Annual Performance Report,
●   Targeted Verification Reviews.           progress in achieving its work-        covering calendar year 1999 that,
    We will maintain a program of            load and assessing progress in         under the Results Act, is due to
    independent reviews to evaluate          meeting annual performance             the President and the Congress by
    the adequacy and reliability of          goals for safety and soundness         March 31, 2000. For future annual
    selected information systems             examinations.                          cycles, the OIG will continue to
26




advise management regarding the         OIG will also continue to monitor and
Corporation’s Results Act plans and     review legislation proposed in the
reports undergoing development          Congress to amend the Results Act
or revision.                            and will actively participate through
                                        the President’s Council on Integrity
The OIG will continue to develop        and Efficiency and the interagency
and refine its integrated oversight     groups it sponsors to refine appropri-
strategy so that the OIG’s Results      ate OIG Results Act roles, responsi-
Act-related efforts fully conform to    bilities, and activities.
the spirit and intent of the Act. The




   Transfer       The U.S. General Accounting Office (GAO) and the FDIC OIG continue to work
                  toward transferring full responsibility for the FDIC annual financial statement
          of      audit to the OIG. This responsibility is shared between two OIG offices located
   Financial      in Washington and Dallas. The OIG Washington staff has assumed audit respon-
                  sibility for cash, investments, and expenses. The OIG Dallas staff has assumed
 Statement        complete responsibility for auditing the methodology and process for the valu-
      Audit       ation of receivership assets, internal controls over receivership cash receipts and
                  disbursements, and the FDIC's oversight of contractors who manage and
      Work        dispose of receivership assets for the FDIC. GAO approved the audit approach
       from       and methodology for these areas that the FDIC OIG staff had planned and will
                  rely on the OIG's work for these portions of the FDIC's financial statement audit.
       GAO
          to      In connection with the government-wide consolidated financial statement audit,
                  the Inspectors General will again this year certify the accuracy of their agency's
        OIG       fiscal year financial data included in the government's consolidated financial
Progresses        audit. To prepare the government-wide consolidated financial statements, the
                  U.S. Department of the Treasury receives financial data from federal agencies
                  and enters the information in the Federal Agencies Centralized Trial Balance
                  System (FACTS). Treasury then returns that data to the agencies for review and
                  certification. The OIG financial statement audit team will certify the accuracy of
                  the FACTS data submitted by the FDIC's Division of Finance on behalf of the
                  FDIC. The Inspectors General will also submit the required "agreed-upon proce-
                  dures" audit report to the Treasury and GAO by the March due date.

                  The OIG is committed to the effort of assuming the duties of performing the
                  annual FDIC financial statement audit and expects to allocate staff to ensure the
                  successful transfer of this critical function from GAO to the OIG.
                                                                                                               27




                                                                     Partnership Success Story
                                                                     The OIG, GAO, the Office of Internal
                                                                     Control Management, the Division
                                                                     of Finance, and other divisions success-
                                                                     fully partnered during the audit of the
                                                                     Corporation’s financial statements
                                                                     for 1998. In June 1999, FDIC received
                                                                     unqualified opinions on the statements
    1.   L. Wellons, R. Simms, A. Boateng, OIG.                      from the GAO. No material weaknesses
    2.   V. Deshpande, OICM; G. Gianni, OIG; F. Selby, DOF.          or reportable conditions were identified.
    3.   S. Switzer, OIG; V. Deshpande, OICM; J. Franzel, GAO.




                                                                 1




2




                                        3
 28




          OIG Work a Catalyst for Improvement
                                                   During this reporting period we
                                                   have been made aware of the
                                                   following actions by management
                                                   that are related to a number of
                                                   our past reviews.




Since our review of the Office     ●   Conducted two FOIA training          We initiated a review              ●   DOS has made substantial interim
of the Executive Secretary's           sessions,                            of DOS's Case Manager                  revisions to the reporting require-
(OES) processing of Freedom of                                              Program. Our objective was to          ments and given regional managers
                                   ●   Eliminated the 12-month-old cate-
Information Act (FOIA) requests,                                            identify issues that may warrant       the discretion to use application
                                       gory of FOIA requests and included
OES has periodically informed                                               further review or management           specialists to process applications
                                       a new section regarding the track-
us of actions it has taken                                                  attention. DOS informed us that        filed by institutions to provide
                                       ing of FOIA appeals in the FOIA
to improve the FOIA process.                                                it has taken actions both in           case managers more time to
                                       quarterly report to the Chief
Specifically, OES has:                                                      response to our report and             focus on risk and supervisory
                                       Operating Officer,
                                                                            based on its own initiatives to        issues and result in more timely
                                   ●   Started transmitting all FOIA        address issues raised by case          and succinct information being
                                       requests to Divisions and Offices    managers during our review.            made available to management
                                       via electronic mail, and             Specifically:                          for analysis. These actions respond
                                                                                                                   to our findings that (1) case man-
                                   ●   Reminded Divisions and Offices
                                                                                                                   agers and regional management
                                       that control records needed to be
                                                                                                                   questioned the value of the Large
                                       completed for every FOIA request.
                                                                                                                   Insured Depository Institution
                                                                                                                   reviews as they were structured
                                                                                                                   at the time of our review and
                                                                                                                   (2) case managers were spending
                                                                                                                   a disproportionate amount of
                                                                                                                   their time on applications instead
                                                                                                                   of safety and soundness issues
                                                                                                                   and off-site analysis.
                                                                                                                                         29




As a result of a Hotline call       ●   Developed a communications         In connection with a report       ●   Successfully resolved a number
regarding the disposition of a          course for staff and managers;     we issued to improve the Office       of its older cases that were in
building from a failed savings                                             of Diversity and Economic             the final agency decision stage,
and loan, we performed a
                                    ●   Held management briefings;
                                                                           Opportunity's (ODEO) discrimi-    ●   Begun reporting comparative
review of the management and        ●   Conducted training sessions that   nation complaint program,
                                                                                                                 elapsed-day statistics similar to
buyout of the River Ridge Branch        included executives; and           ODEO informed us that it has:
                                                                                                                 how we presented information
Lease. The customer believed
                                    ●   Prepared and placed an External                                          in our report,
that the Resolution Trust Cor-
poration (RTC) and the FDIC did         Inquiries Reference Guide on the                                     ●   Generally improved the timeliness
not follow fair and appropriate         DRR Web site to provide guidance
                                                                                                                 of processing cases at each stage
business practices and the              as to how to draft responses to
                                                                                                                 of the discrimination process,
actions taken were based on             inquiries from Members of the
                                        Congress, the White House, and                                       ●   Worked with the Legal Division
racial bias. Our review found
                                        the public.                                                              to successfully pilot an Alternative
that the FDIC generally followed
                                                                                                                 Dispute Resolution program
the applicable policies and
                                                                                                                 during the informal counseling
procedures and that there was
                                                                                                                 stage, and
no documented evidence that
the FDIC's actions were based                                                                                ●   Hired a new director with an
on racial bias. However, we                                                                                      extensive Equal Employment
suggested that the FDIC and                                                                                      Opportunity background.
RTC could have handled the
customer's inquiries better
through improved communica-
tions. In response to our report,
Division of Resolutions and
Receiverships (DRR) officials
informed us that they are devel-
oping a formal program to rein-
force good communication and
customer service practices
to improve relations with the
public. Specifically, DRR has:
    30




                                            Investigations
    April 1, 1999 thru September 30, 1999
                 OIG Semiannual Report




                                                       The Office of Investigations (OI)            Support and cooperation among
                                                       is responsible for carrying out              other law enforcement agencies is
                                                       the investigative mission of                 also a key ingredient for success
                                                       the OIG. Staffed with agents in              in the investigative community.
                                                       Washington, D.C., Atlanta, Dallas,           We frequently “partner” with the
                                                       Chicago, and San Francisco, OI               FBI, the IRS, Secret Service, and
                                                       conducts investigations of alleged           other law enforcement agencies
                                                       criminal or otherwise prohibited             in conducting investigations of joint
                                                       activities impacting the FDIC and its        interest.
                                                       programs. As is the case with most
                                                       OIG offices, OI agents exercise full
                                                       law enforcement powers as special
                                                       deputy marshals, under a blanket             Results
                                                       deputation agreement with the
                                                       Department of Justice. OI’s main
                                                       focus is in investigating criminal           Over the last 6 months, OI opened
                                                       activity that may harm or threaten           42 new cases and closed 30 cases,
                                                       to harm the operations or the integrity      leaving 157 cases underway at the
                                                       of the FDIC and its programs. In             end of the period. Our work during the
                                                       pursuing these cases, our goal, in           period led to indictments or criminal
                                                       part, is to bring a halt to the fraudulent   charges against four individuals and
                                                       conduct under investigation, protect         one company. Seven defendants
                                                       the FDIC and other victims from              were convicted during the period.
●   Joint Efforts                                      further harm, and assist the FDIC            Criminal charges remained pending
                                                       in recovery of its losses. Another           against 11 individuals as of the end
●   Results                                            consideration in dedicating resources        of the reporting period. Fines, restitu-
                                                       to these cases is the need to pursue         tion, and recoveries stemming from
                                                       appropriate criminal penalties not           our cases totaled about $12.6 million.
                                                       only to punish the offender but to           One civil settlement was reached
                                                       deter others from participating in           during the period and suits were
                                                       similar crimes.                              still pending against five defendants
                                                                                                    at the end of the reporting period.
                                                                                                    Following are some of the case
                                                                                                    highlights resulting from our inves-
                                                       Joint Efforts                                tigative activity during the reporting
                                                                                                    period.

                                                       The OIG works closely with U.S.
                                                       Attorneys’ Offices throughout the
                                                       country in attempting to bring to            Task Force Cases
                                                       justice individuals who have defrauded
                                                       the FDIC. The prosecutive skills and         As described in our previous semian-
                                                       outstanding direction provided by            nual reports, we participate actively
                                                       Assistant U.S. Attorneys with whom           on several task forces that have
                                                       we work are critical to our success.         been formed to target particular
                                                       The results we are reporting for             types of illegal conduct and often
                                                       the last 6 months reflect the efforts        focus on specific geographic areas.
                                                       of U.S. Attorneys’ Offices in the            These task forces typically consist
                                                       (1) Eastern District of Pennsylvania,        of a team of investigative, prosecutive,
                                                       (2) Northern District of Texas,              and other personnel. During this
                                                       (3) Southern District of Florida,            period, there were prosecutive
                                                       (4) Northern District of Illinois,           actions on several of these task
                                                       (5) District of New Hampshire, and           force investigations.
                                                       (6) Eastern District of Virginia.
                                                                                                       31




Three Men Charged with
Conspiracy, Bankruptcy Fraud,
and Corruptly Impeding Functions
of the FDIC
The owner/operator of several
Massachusetts nursing homes, an
architect, and a third individual were
indicted based on an investigation          Investigative Statistics
that was initiated by the now-defunct
New England Bank Fraud Task Force
and jointly conducted with the Secret
Service. The three defendants were             Judicial Actions:
charged with conspiracy, corruptly               Arrests                                           4
impeding the functions of the FDIC,
and bankruptcy fraud.                            Indictments/Informations                          5
                                                 Convictions                                       7
The nursing home owner/operator
originally obtained an $8.1 million loan       Actions Involving FDIC Employees
from the First Mutual Bank of Boston           as a Result of Investigations:
to develop an elderly care facility but
defaulted on the loan in 1990. After
                                                 Reprimand                                         1
the bank failed in June 1991, the
FDIC was appointed as receiver and             OIG Investigations Resulted in:
twice attempted to foreclose on                  Fines of                                $ 1,519,000
and sell the property. The indictment            Restitution of                              506,700
alleges that, on both occasions,
the nursing home owner/operator
                                                 Monetary Recoveries of                   10,531,041
orchestrated a scheme for purported              Total                                  $ 12,556,741
creditors of the project to file involun-
tary bankruptcy petitions against              Cases Referred to the
the developers based on false and              Department of Justice (U.S. Attorney)              23
inflated claims. The filing of the bank-
ruptcies forced the FDIC to cancel
the scheduled foreclosure sales of             Referrals to:
the project for over 2 years.                    FDIC Management                                   3

Complaint Filed Against Felon                  OIG Cases Conducted Jointly with Other Agencies    49
Who Owes the FDIC More Than
$10 Million in Restitution
Our previously reported work with
the Judicial Enforcement Team, a
task force created by the Financial
Litigation Unit of the U.S. Attorney’s
Office, District of Massachusetts,
continued to produce results during
this period. The group was formed
for the purpose of pursuing hidden
assets of individuals subject to court-
ordered restitution. In continuation
of its pursuit of a case described
in our last semiannual report, the
U.S. Attorney’s Office for the District
of Massachusetts filed a complaint
in June 1999 in U.S. District Court,
32




            A felon who owed the FDIC over $10 million claimed she
            was indigent and had no assets. The OIG discovered this
            and much other valuable artwork in a storage facility she
            rented.




Boston, to recoup additional assets          The most recent complaint in this          co-conspirator allegedly made and/or
from a former Massachusetts devel-           case stems from the discovery during       obtained counterfeit checks drawn
oper. In 1995 the developer was              the investigation of a storage facility    on FDIC accounts maintained at
sentenced to serve 24 months in              containing expensive artwork owned         financial institutions. Counterfeit
prison and was ordered to pay the            by the subject. The OIG also deter-        checks were also identified for
FDIC $10.9 million in restitution            mined that in July 1998, 3 days after      accounts of other commercial enter-
for defrauding the former Bank of            being served an OIG subpoena, the          prises. From May 1997 through
New England. Her conviction was              subject transferred her beneficial         August 1998, the defendant and
in part based on her use of $28 million      interest in a $444,000 life insurance      the co-conspirator recruited account
in loan proceeds to support her              policy to her daughter. The recent         holders and/or individuals to deposit
extravagant lifestyle. She used loan         complaint petitions the court to           and/or cash the fraudulent checks
proceeds to rent a luxury apartment          (1) have the artwork seized and liqui-     at either financial institutions or at
at the Ritz Carlton and to buy a Ferrari,    dated and (2) void the life insurance      check-cashing agencies, in return
a Lincoln Continental, jewelry, and          transfer, with the proceeds from both      for a portion of the proceeds.
boats. Upon her release from prison,         actions applied toward the restitution
she was placed on probation but              order. In addition, the complaint
never made any restitution, claiming         requests that the court enter a
that she was indigent and had no             $125,000 order against the subject’s       Contract Fraud Cases
assets. In 1997 the OIG was con-             husband for his role in conspiring to
tacted by a probation official and           conceal her ownership of the artwork.      The FDIC OIG continues to pursue
asked to assist in evaluating the            The $125,000 covers the investigative      investigations involving suspected
subject’s ability to make restitution        costs expended by the U.S. Attorney’s      fraudulent activities by individuals
and assessing whether she had                Office and the OIG relative to the         and entities in their contracts with
hidden or diverted assets.                   artwork.                                   the FDIC. Several of these investi-
                                                                                        gations were resolved successfully
As we reported previously, the inves-        Counterfeit Check Investigation            during this period.
tigation of this case resulted in the        Results in Indictment
revocation of the developer’s probation      As a result of an ongoing investiga-       Contract Auctioneer Pleads Guilty
in November 1998. At that time she           tion we are conducting with the            to Embezzling Funds from the
was remanded to a federal halfway            Philadelphia Bank Fraud Task Force,        FDIC, Agrees to Make Restitution
house for 6 months, followed by              a man was indicted on one count            A Florida auctioneer and his company
90 days of electronically monitored          of conspiracy to commit bank fraud.        pleaded guilty to embezzling funds
home detention. She was also ordered         As detailed in the indictment returned     from the Corporation. As part of
to immediately obtain employment             by a federal grand jury in Philadelphia,   the plea agreement, the auctioneer
and commence payment of $300 per             Pennsylvania, in April 1999, the           agreed to pay restitution of $118,130
month in restitution to the Corporation.     defendant and an unidentified              to the FDIC. The case was
                                                                                                                           33


                       An OIG investigation led to a former private security guard
                       pleading guilty to theft of the FDIC-owned government
                       property seen here in his home.




investigated by the OIG and prose-          guards were required to have             the FDIC $2.38 million; and the
cuted by the U.S. Attorney’s Office         received certain supervisory guard       company contracted by the RTC
for the Southern District of Florida.       training. The investigation revealed     to broker the sale paid the FDIC
Sentencing of the two defendants            that documentation maintained by         $3.75 million. Additionally, a pre-
has been scheduled for later this           the company as evidence that the         suit settlement was reached with
year.                                       required training had been received      the law firm that represented the
                                            was false and that the FDIC was          RTC in the sale whereby the FDIC
As receiver of failed FDIC-insured          billed at the higher supervisory guard   received $1.1 million.
banks, the Corporation manages              rate for guards that had not received
and liquidates the assets of failed         the training.                            Investigation of Thefts of FDIC
banks. The Corporation contracted                                                    Property Leads to Prosecution
with the two defendants to organize                                                  of Former Security Guard and
and conduct numerous auctions and                                                    Revised FDIC Inventory Control
sales of such assets. Following these       Other Cases                              Procedures
auctions and sales, the defendants                                                   Based on an OIG investigation, a
were required to remit the proceeds –       Investigation Leads to Recoveries        former private security guard at a
less certain advertising and labor          from Parties Involved in                 building in Dallas, Texas, where FDIC
costs and certain credits approved          Sale of Mortgage Subsidiary              offices are located was indicted and
by the FDIC– to the Corporation. The        During the current reporting period,     pleaded guilty to theft of government
defendants were also required to            the OIG learned that negotiated set-     property. Our investigation, which
provide the FDIC with recapitulations       tlements totaling almost $10.5 million   included execution of a search warrant
that reflected, among other things,         had been completed with several          at the defendant’s residence, found
the winning bid amounts, items sold,        companies involved in the sale of        that the defendant stole property
and total proceeds. The investigation       a subsidiary of Western Savings and      belonging to the FDIC valued at over
disclosed that the defendants               Loan Association, which was taken        $40,000, including computers and
(1) submitted fraudulent recapitula-        over by the Resolution Trust Corpora-    various articles of law enforcement
tions, substantially misrepresenting        tion (RTC) in June 1989. WESAV           equipment. Following his plea of
and underreporting the proceeds             Mortgage Corporation was sold by         guilty on one count of an eight-count
and (2) remitted proceeds based on          the RTC in 1991 to a company formed      indictment, the defendant was
these fraudulent recapitulations.           by two former officers of Western        sentenced in the Northern District
                                            Savings and Loan Association.            of Texas to serve 6 months imprison-
Former FDIC Contractor Enters               Working with the U.S. Attorney’s         ment, followed by 6 months of home
into Settlement Agreement and               Office for the District of Arizona,      confinement and 3 years of supervised
Pays $43,000 to Avoid Prosecution           the OIG conducted an investigation       release. Additionally, he was ordered
for Overbilling                             of suspected fraudulent activities       to pay a $3,000 fine.
A former FDIC security guard services       associated with this transaction.
contractor entered into a settlement        Ultimately, in March 1996, the           As a result of this investigation, the
agreement and paid $43,000 to avoid         U.S. Attorney’s Office decided that      OIG also identified weaknesses in
potential prosecution for overbilling.      the issues under investigation would     FDIC inventory control procedures
The case was investigated by the            be more appropriately considered         and recommended corrective
OIG, and the settlement agreement           in a corresponding civil suit that       changes to FDIC management. In
was negotiated by the U.S. Attorney’s       had been filed by the RTC based          response, local procedures dealing
Office for the Eastern District of          on information obtained by the OIG.      with control and disposal of surplus
Virginia.                                   The FDIC assumed the position as         FDIC computer equipment were
                                            the plaintiff in the suit when the       revised. This case was also used
Pursuant to its contract with the           RTC ceased operations in December        as the basis of a case study that
FDIC, the company provided security         1995. Although none of the defen-        the OIG prepared and presented in
guard services at the FDIC building         dants in the civil suit admitted any     collaboration with the FDIC Division
in Arlington, Virginia, between             wrongdoing, fault, or liability, three   of Information Resources Manage-
June 1993 and March 1996. The               separate negotiated settlements were     ment at the FDIC Information
overbilling issue involved claims           reached whereby the purchaser of         Security Officers nationwide confer-
submitted for supervisory guard             WESAV paid the FDIC $3.25 million;       ence in September 1999.
services. Under the terms of the            the firm that the RTC hired as its
contract, to be considered supervisors,     financial advisor for the sale paid
    34




                                            OIG Organization
    April 1, 1999 thru September 30, 1999
                 OIG Semiannual Report




                                                       During this reporting period the OIG       The OIG: A Learning Organization
                                                       made significant progress toward the
                                                       goal of becoming a “learning organi-
                                                       zation” and also critically examined       As a “learning organization,” we
                                                       OIG workplace diversity issues. Our        have attempted to develop a greater
                                                       efforts culminated in an OIG-wide          understanding of how we can con-
                                                       conference in which we centered            stantly improve our operations,
                                                       our activities around a single theme:      provide all staff with greater job
                                                       OIG 2000 — Destination: Excellence         satisfaction, and improve communi-
                                                       where we focused our attention on          cation between management and
                                                       how we could improve our communi-          staff. The OIG is committed to
                                                       cation and work together most              continuously examining our products
                                                       effectively. To further enhance OIG        and services, processes and opera-
                                                       independence, in accordance with           tions, and working relationships.
                                                       the Inspector General Act, we also
                                                       established an independent, full-service   To begin the process of self-analysis,
                                                       personnel unit, which became fully         we first completed surveys to deter-
                                                       operational in September 1999.             mine the level of satisfaction with
                                                       The Inspector General, in his role as      OIG operations and communication
                                                       Vice Chair of the President’s Council      and our diversity within the OIG. The
                                                       on Integrity and Efficiency, worked        surveys targeted: (1) OIG manage-
                                                       to further the entire Inspector General    ment perceptions of our organization’s
                                                       community’s success in accomplish-         mission, role, structure, work proces-
●   The OIG:                                           ing its mission under the Inspector        ses, and work products; (2) internal
    A Learning Organization                            General Act.                               client satisfaction; (3) external client
                                                                                                  satisfaction; and (4) diversity within
                                                                                                  the OIG. Building upon our earlier
●   OIG’s Diversity Study                                                                         analysis of data gathered from the
                                                                                                  surveys, we identified seven issues
●   OIG Human Resources Branch                                                                    and created specific action plans
                                                                                                  to implement the needed changes.
●
                                                                                                  These issues include: adding value
    IG Takes Lead Role in                                                                         to the Corporation, defining success
    the President’s Council                                                                       and accountability, building trust,
    on Integrity and Efficiency                                                                   improving communication, clarifying
                                                                                                  the OIG’s role, clarifying and achieving
●   OIG Internal Activities                                                                       consistency in the OIG’s message
                                                                                                  and actions, and increasing flexibility.
●   OIG Coordination with and
    Assistance to FDIC Management                                                                 During our recent OIG-wide confer-
                                                                                                  ence, we explored and refined action
                                                                                                  plans for each issue. Key activities
●   Results                                                                                       focused on enhanced communication
                                                                                                  skills to help us work more effective-
                                                                                                  ly together. The resulting action
                                                                                                  plans link to the goals we articulated
                                                                                                  in the OIG’s year 2000 performance
                                                                                                  plan. Through these efforts we have
                                                                                                  furthered initiatives to increase the
                                                                                                  quality of our work in the year 2000
                                                                                                  and beyond.
                                                                                       ▼▼
                                                                                         ▼▼
                                                                                                                             35




                                                                                           ▼▼
                                                                                             ▼▼
                                                                                               ▼▼
                                                                                                 ▼▼
                                                                                                   ▼▼
                                                     trust




                                                                                                     ▼▼
                                                                                                       ▼▼
                                                                                                flexibility




                                                                                                         ▼▼
                                                                                                           ▼▼
                                                          OIG Learning Organization Issues
                                                                 Adding Value




                                                                                                             ▼▼
                                                                 Success and Accountability




                                                                                                               ▼▼
                                                                 Building Trust




                                                                                                                 ▼▼
                                                                 Improving Communication




                                                                                                                   ▼▼
                                                                 Clarifying OIG Role
                                                                 Consistency of OIG Message




                                                                                                                     ▼▼
                                                                 and Actions
                                                                 Increasing Flexibility




                                                                   OIG Office Heads (l-r):
                                                                   Front row: Patricia Black, Gaston L. Gianni, Jr., James Renick
                                                                   Back row: Rex Simmons, Samuel Holland, Stephen Beard,
                                                                   Robert McGregor, Steven Switzer




OIG’s Diversity Study                    all of the Corporation’s diversity goals    understanding of what is meant
                                         and strategies. Earlier this year the       by diversity in the FDIC. We also
                                         Inspector General prepared a report         explored leadership characteristics
The OIG embraces the FDIC Chair-         on OIG workplace diversity for the          and motivational strategies to help
man’s commitment to promoting and        House Subcommittee on VA, HUD,              us recognize our individual strengths
supporting an inclusive environment      and Independent Agencies, Committee         and achieve both our individual and
that provides all employees, individu-   on Appropriations.                          group potential. We have designated
ally and collectively, the chance to                                                 one of our managers to serve as a
work to their full potential in the      Our study of workplace diversity            focal point to help guide our diversity
pursuit of the Corporation’s mission.    issues within the OIG supplements           efforts. The OIG is currently develop-
The FDIC Chairman championed the         the Corporation’s Diversity Strategic       ing a diversity action plan to implement
development of FDIC’s first Diversity    Plan and offers additional suggestions      the suggestions of the OIG study.
Strategic Plan which was approved        for addressing particular diversity         The plan includes the development
by the Board of Directors in May 1999,   issues inside the OIG. During the OIG-      of an OIG policy statement on
and the Inspector General has voiced     wide conference we discussed the            diversity and creation of an OIG
the OIG’s full commitment to             workplace diversity issues identified       employee advisory group.
participate and assist in implementing   by the OIG study and clarified our
36




OIG Human Resources Branch                 training facilities designed to meet
                                           the unique audit and investigative
                                           needs of the Inspector General
The OIG’s Human Resources                  community.
Branch became fully operational on
September 27, 1999. Establishment          In an effort to work more closely
of the Human Resources Branch              with the entire Inspector General
further enhances OIG independence          community, the PCIE organized two
in accordance with the Inspector           joint sessions over the last 6 months
General Act. As an independent,            to involve members of the Executive
full-service personnel office serving      Council on Integrity and Efficiency
OIG headquarters and field staff, the      (ECIE). ECIE members include
branch performs functions previously       Inspectors General appointed by their
performed by the FDIC’s Personnel          respective agency head and certain
Services Branch. Although it operates      government ethics and law enforce-
independently of the corporate             ment officials. Up to two ECIE
Personnel Services Branch, it will         members participate on each of the
fully comply with laws and regulations     six standing committees.
pertaining to FDIC personnel. In line
with the OIG’s vision as a learning        During this past summer, the PCIE
organization, our personnel staff is       and ECIE issued their annual report
dedicated to customer satisfaction         to the President highlighting results
in serving the OIG. Since the OIG          of the Inspector General community
assumed authority for all personnel        during fiscal year 1998. (See
functions for OIG employees,               inside back cover of this semiannual
OIG Counsel has also become more           report.) Last month, the Councils
directly involved and will continue        jointly recognized individuals from
to be involved with litigation, adverse    40 federal departments, agencies,
actions, and equal employment              and corporations for outstanding
opportunity matters.                       accomplishments and contributions
                                           within the Inspector General com-
                                           munity and the government at large.

IG Takes Lead Role in President’s          Over the next several months, the
Council on Integrity and Efficiency        PCIE will initiate a vigorous strategic
                                           planning process that will provide
                                           guidance and direction for both
In May 1999, the FDIC Inspector            Councils into the next century. In
General assumed the role of Vice           addition to handling routine matters
Chair of the President’s Council on        and responding to unanticipated
Integrity and Efficiency (PCIE). The       issues affecting the community, the
PCIE is composed of Inspectors             PCIE plans to direct its attention
General appointed by the President         toward addressing emerging issues
and confirmed by the Senate and            connected with systems security,
certain government ethics and law          enhancing financial management
enforcement officials. The Office of       practices with an eye toward obtain-
Management and Budget’s Deputy             ing clean opinions on audited agency
Director for Management serves as          financial statements, continuing to
the PCIE Chair. The Council maintains      foster Government Performance
six standing committees to manage          and Results Act principles, bringing
audit, investigation, evaluation, legis-   to successful completion the com-
lation, professional development, and      munity’s intensive Year 2000 activities,
integrity issues and projects. The         and identifying such wrongdoing as
PCIE also oversees two specialized         benefits and contract fraud.
                                                                                                          37




OIG Internal Activities
Submitted our Report on OIG Workplace
Diversity to the House Subcommittee on VA,
HUD, and Independent Agencies, Committee
on Appropriations.

Held first OIG-wide conference, OIG 2000 —
Destination: Excellence, that focused on
the OIG’s continuing efforts to improve our
processes and develop more effective working
relationships.

Prepared the OIG’s Annual Performance Plan
for 2000.

Developed and implemented a new format for
reporting OIG quarterly performance results
against annual performance goals.                     Developed an OIG plan for the Y2K “rollover”
                                                      weekend that provides for monitoring OIG
As an off-shoot of our learning organization          computer systems, facsimiles, and other
initiative, identified seven issues from previously   equipment.
completed customer satisfaction surveys and
other internal views and created action plans         Developed a secure automated information
for each OIG component to address these               system to track OIG investigations and contin-
issues. As an example of these actions, we            ued developing a new information system
developed a mechanism to gain feedback                for audits and evaluations.
related to our processes and products from
the auditee and evaluatee during OIG audits           Several OIG projects were honored at the
and evaluations.                                      annual award ceremony of the President’s
                                                      Council on Integrity and Efficiency and the
Established an independent, full-service Human        Executive Council on Integrity and Efficiency.
Resources Branch.                                     Work cited included: Joint Review of the
                                                      Federal Financial Institutions Examination
Issued policy on the OIG’s release of reports         Council’s Training Program; FDIC’s internal and
to the public and the Congress.                       regulatory efforts to address Y2K concerns;
                                                      Material Loss Review of the Failure of BestBank,
Sponsored 11 summer interns in the OIG’s              Boulder, Colorado; and Federal Audit Executive
Office of Audits, Office of Management and            Council’s Financial Statement Audit Network
Policy, and Counsel’s office.                         team.
Participated in interagency Government                Inspector General serves as member of the
Performance and Results Act interest groups           U.S. General Accounting Office’s Yellow Book
sponsored by the President’s Council on               Advisory Board.
Integrity and Efficiency and the U.S. Office
of Personnel Management to share ideas and            The OIG Counsel’s office represented the
best practices on Results Act implementation.         office in 14 lawsuits, including defense of a
                                                      whistleblower action, several qui tam actions,
                                                      and a discrimination case. (A qui tam suit is a
                                                      civil action brought by a private party under the
                                                      False Claims Act, which the government may
                                                      elect to join as a complainant. If the govern-
                                                      ment proves the case, the party initiating the
                                                      suit may be entitled to share in any resulting
                                                      monetary recoveries.)
38




                                     OIG Coordination
                                     with
                                     and Assistance
                                     to FDIC Management
     ●   Briefed the Chairman of the Y2K           ●   Worked closely with DOS and the            ●   Issued memorandums to members
         Oversight Committee, the Director             Legal Division to finalize memorandum          of the Audit Committee, FDIC Division
         of Division of Information Resources          prescribing procedures for communi-            and Office Heads, and other execu-
         Management, and the Acting                    cations between DOS and the OIG                tives to solicit audit suggestions for
         Director of the Division of Adminis-          with respect to open financial                 our 2000 Audit Plan to help ensure
         tration on the status of the develop-         institution criminal investigations.           that audit activity fully addresses
         ment of the FDIC’s first overall                                                             corporate goals and priorities.
         Business Continuity and Contingency       ●   Furthered efforts with Division of
         Plan and provided suggestions to              Resolutions and Receiverships (DRR)        ●   Provided representatives from our
         improve the process.                          to pursue court-ordered restitution            Offices of Audits and Investigations
                                                       and establish procedures for ongoing           to speak at the FDIC’s National
     ●   Worked with the Division of                   exchange of information. Since                 Information Security Officer
         Administration to review the                  June, 7 new cases are being                    Conference. Their goal was to
         Corporation’s copier administration           coordinated with DRR, involving                communicate to the audience the
         program. Results of the review could          a total of almost $10 million in               nature of the OIG’s efforts to ensure
         save the Corporation $9 million over          outstanding restitution orders or              that corporate information systems
         a 5-year period.                              other types of debt.                           and equipment are fully safeguarded.

     ●   Provided FDIC management with             ●   Continued comprehensive, proactive         ●   Established plan for OIG presence
         suggestions to improve the accuracy           monitoring and advisory services for           at FDIC sites during Year 2000
         and reasonableness of individual              all phases of the Corporation’s Y2K            “Rollover Weekend.” A limited
         asset recoveries in the Standard              activities-internal and external-to            number of OIG staff will be present
         Asset Valuation Estimation (SAVE)             help ensure successful transition to           at FDIC sites in an observation
         model. The SAVE estimates are used            Year 2000.                                     capacity and will be available to
         in the least cost test and the sale                                                          initiate audit work and assist with
         of assets at resolution, when making      ●   Met with DOS’s Memphis Regional                problem resolution, if needed.
         asset management and disposition              Office to clarify both the audit process
         decisions, and for financial reporting.       and the roles and responsibilities of
                                                       OIG investigators.
     ●   Participated in the Division of
         Supervision’s (DOS) Regional              ●   Coordinated on issuance of
         Directors’ Conference held in                 Chairman’s Directive on Cooperation
         Williamsburg, Virginia, to discuss            with OIG Activities, setting forth
         such items as the audit planning              responsibilities of all FDIC employees,
         process, status of OIG work related           contractors, and subcontractors with
         to DOS issues, and the importance             regard to investigations, audits,
         of ongoing communication. The                 evaluations, and other activities
         Office of Investigations and Counsel          conducted by the OIG.
         presented interim procedures for
         DOS and the OIG regarding the
         provision of information to the OIG
         and making employees available
         to talk with the OIG regarding open
         bank investigative matters.
                                                                                                   39




Table 1:
OIG Review of Proposed or Existing Regulations and Legislation
April 1, 1999 - September 30, 1999




                       ▼
                           The OIG reviewed the following regulations and legislation.

                           Regulations

                Part 327 Notice of Proposed Rule Making on Assessments

                Part 308 Amendments—Rules of Practice and Procedure

                Part 308 Subpart T—Program Fraud Civil Remedies Act Regulations

                Part 340 Restrictions on the Purchase of Assets from the FDIC

                           Interim Final—McDade Amendment


                           Legislation

               H.R. 1827 Government Waste Corrections Act of 1999

         H.R. 582 & 2962 Federal employee overtime provisions

               H.R. 2062 The Right to Financial Privacy Act Amendments

                 H.R. 218 Relating to concealed weapons

                  H.R. 10 Financial Services Act of 1999

                   S. 886 Dodd Amendment

                   S. 958 Financial Institutions Insolvency Improvement Act

                           Draft proposed amendment to Paperwork Reduction Act

                    Note: Among the more significant regulations that OIG Counsel
                          commented on during the period are the following:
                          Restrictions on the Purchase of Assets from the FDIC—
                          Mandated by the Resolution Trust Completion Act of 1993, which
                          required the FDIC to prevent the sale of assets of failed institutions
                          to individuals who had caused the institution’s failure. The OIG
                          remains concerned that the Asset Purchaser Program is a
                          self-certification program with no enforcement mechanism
                          to deter false certifications.
                          Program Fraud Civil Remedies Act Regulations—
                          The OIG strongly opposed the FDIC’s planned implementation
                          of PFCRA regulations that limit recoveries for false claims and
                          statements to cases of claims submitted in connection with FDIC
                          corporate contracting. We believe the application of PFCRA should
                          cover all contracting and program areas, such as the Corporation’s
                          Asset Purchaser Program.
40




Table 2:
Significant OIG Achievements
April 1999 - September 1999



         $ millions

         Audit Reports Issued                                                                          22

         Evaluation Reports Issued                                                                       4

         Audit-Related Memorandums Issued ●                                                            10

         Evaluation-Related Memorandums Issued                                                           1

         Questioned Costs and Funds Put to Better Use from Audit and Evaluation Reports             $ 16.4

         Investigations Opened                                                                         42

         Investigations Closed                                                                         30

         OIG Subpoenas Issued                                                                          14

         Convictions                                                                                     7

         Fines, Restitution, and Monetary Recoveries                                                $ 12.6

         Hotline Allegations Referred                                                                  22

         Allegations Substantiated                                                                       3

         Allegations Closed                                                                            21

         Proposed or Existing Regulations and Legislation Reviewed                                     14

         Proposed FDIC Policies Reviewed                                                               28

         Responses to Requests & Appeals Under the Freedom of Information Act & Privacy Act            21

     ●
     These memorandums relate to audit work that did not result in formally issued audit reports.




                                                                        Table 3
                                                                        Nonmonetary Recommendations


                                                                             April 1997–September 1997       110
                                                                             October 1997–March 1998          52
                                                                             April 1998–September 1998        77
                                                                             October 1998–March 1999         133
                                                                             April 1999–September 1999        66
                                                                                                     41




                                                                                          figure 1
                         Reports Issued and Investigations Closed
                                                                                                80
                                                                                                70
                                                                                                60
                                                                                                50
                                                                                                40
                                                                                                30
                                                                                                20
                                                                                                10
                                                                                                 0
                                        Audits and Evaluations       Investigations




                                                                                          figure 2
                         Questioned Costs/Funds Put to Better Use
                         ($ millions)                                                           18
                                                                                                15
                                                                                                12
                                                                                                 9
                                                                                                 6
                                                                                                 3
                                                                                                 0
                                                                 Audits and Evaluations



                                                                                          figure 3
                         Fines, Restitution, and Monetary Recoveries from OIG Investigations
                         ($ millions)                                                           19
                                                                                                13
                                                                                                10
                                                                                                 9
    Legend
                                                                                                 8
●   Apr 97–Sep 97
                                                                                                 7
●   Oct 97–Mar 98
                                                                                                 6
●   Apr 98–Sep 98                                                                                5
●   Oct 98–Mar 99                                                                                4
●   Apr 99–Sep 99●                                                                               3
●
    Figure 1:                                                                                    2
    Includes audit-and                                                                           1
    evaluation-related                                                                           0
    memorandums
    42




                                            Reporting Terms
                                            and Requirements
    April 1, 1999 thru September 30, 1999
                 OIG Semiannual Report




                                                      Reader’s Guide to Inspector General         by either disallowing or not disallow-
                                                      Act Reporting Terms                         ing these costs. A “disallowed
                                                                                                  cost,” according to the IG Act, is
                                                                                                  a questioned cost that management,
                                                      What Happens When Auditors                  in a management decision, has
                                                      Identify Monetary Benefits?                 sustained or agreed should not be
                                                                                                  charged to the government.
                                                      Our experience has found that the
                                                      reporting terminology outlined in the       Once management has disallowed
                                                      Inspector General Act of 1978, as           a cost and, in effect, sustained the
                                                      amended, often confuses people.             auditor’s questioned costs, the last
                                                      To lessen such confusion and place          step in the process takes place which
                                                      these terms in proper context, we           culminates in the “final action.” As
                                                      present the following discussion:           defined in the IG Act, final action
                                                                                                  is the completion of all actions that
                                                      The Inspector General (IG) Act              management has determined, via
                                                      defines the terminology and estab-          the management decision process,
                                                      lishes the reporting requirements           are necessary to resolve the findings
                                                      for the identification and disposition      and recommendations included in
                                                      of questioned costs in audit reports.       an audit report. In the case of disal-
                                                      To understand how this process              lowed costs, management will
                                                      works, it is helpful to know the key        typically evaluate factors beyond
                                                      terms and how they relate to each           the conditions in the audit report,
●   Reader’s Guide to IG Act                          other.                                      such as qualitative judgements of
    Reporting Terms                                                                               value received or the cost to litigate,
                                                      The first step in the process is            and decide whether it is in the
●                                                     when the audit report identifying           Corporation’s best interest to pursue
    Index of Reporting                                                   ●
                                                      questioned costs is issued to FDIC          recovery of the disallowed costs.
    Requirements—
                                                      management. Auditors question costs         The Corporation is responsible for
    IG Act of 1978,
                                                      because of an alleged violation of a        reporting the disposition of the disal-
    as amended
                                                      provision of a law, regulation, contract,   lowed costs, the amounts recovered,
                                                      grant, cooperative agreement, or            and amounts not recovered.
                                                      other agreement or document gov-
                                                      erning the expenditure of funds. In         Except for a few key differences, the
                                                      addition, a questioned cost may be          process for reports with recommen-
                                                      a finding in which, at the time of          dations that funds be put to better
                                                      the audit, a cost is not supported by       use is generally the same as the
                                                      adequate documentation; or, a finding       process for reports with questioned
                                                      that the expenditure of funds for the       costs. The audit report recommends
                                                      intended purpose is unnecessary or          an action that will result in funds to
                                                      unreasonable.                               be used more efficiently rather than
                                                                                                  identifying amounts that may need
                                                      The next step in the process is for         to be eventually recovered.
                                                      FDIC management to make a decision
                                                      about the questioned costs. The             Consequently, the management
                                                      IG Act describes a “management              decisions and final actions address
                                                      decision” as the final decision issued      the implementation of the recom-
                                                      by management after evaluation of           mended actions and not the
                                                      the finding(s) and recommendation(s)        disallowance or recovery of costs.
                                                      included in an audit report, including
                                                      actions deemed to be necessary.
                                                      In the case of questioned costs, this       ●
                                                                                                      It is important to note that the OIG does not
                                                      management decision must specifi-               always expect 100 percent recovery of all
                                                      cally address the questioned costs              costs questioned.
                                                                                   43




Index of Reporting Requirements -
Inspector General Act of 1978,
as amended


            Page   Reporting Requirement

              39   Section 4(a)(2)
                   Review of legislation and regulations

           10-27   Section 5(a)(1)
                   Significant problems, abuses, and deficiencies

           10-27   Section 5(a)(2):
                   Recommendations with respect to significant problems, abuses,
                   and deficiencies

           44-46   Section 5(a)(3):
                   Recommendations described in previous semiannual reports
                   on which corrective action has not been completed

              31   Section 5(a)(4):
                   Matters referred to prosecutive authorities

              52   Section 5(a)(5) and 6(b)(2):
                   Summary of instances where requested information was refused

           47-49   Section 5(a)(6):
                   Listing of audit reports

           10-27   Section 5(a)(7):
                   Summary of particularly significant reports

              50   Section 5(a)(8):
                   Statistical table showing the total number of audit reports
                   and the total dollar value of questioned costs

              51   Section 5(a)(9):
                   Statistical table showing the total number of audit reports
                   and the total dollar value of recommendations that funds
                   be put to better use

              52   Section 5(a)(10):
                   Audit recommendations more than 6 months old
                   for which no management decision has been made

              52   Section 5(a)(11):
                   Significant revised management decisions during
                   the current reporting period

              52   Section 5(a)(12):
                   Significant management decisions with which the OIG disagreed
    44




                                            Appendixes
    April 1, 1999 thru September 30, 1999
                 OIG Semiannual Report




                                                     Table I.1:                               Management Action in Process:
                                                     Significant Recommendations              (19 recommendations from
                                                     From Previous Semiannual Reports         11 reports, representing
                                                     on Which Corrective Actions              $0.3 million)
                                                     Have Not Been Completed                  Management is in the process of
                                                                                              implementing the corrective action
                                                     This table shows the corrective          plan, which may include modifications
                                                     actions management has agreed to         to policies, procedures, systems, or
                                                     implement but has not completed,         controls; issues involving monetary
                                                     along with associated monetary           collection; and settlement negotiations
                                                     amounts. In some cases, these cor-       in process.
                                                     rective actions are different from the
                                                     initial recommendations made in the      Litigation:
                                                     audit reports. However, the OIG has      (21 recommendations from
                                                     agreed that the planned actions meet     4 reports, representing
                                                     the intent of the initial recommenda-    $15.4 million)
                                                     tions. The information in this table     Each case has been filed and is
                                                     is based on information supplied by      considered “in litigation.” The Legal
                                                     the FDIC’s Office of Internal Control    Division will be the final determinant
                                                     Management (OICM). These 40              for all items so categorized.
                                                     recommendations from 15 reports
                                                     involve monetary amounts of over
                                                     $15.7 million. OICM has categorized
●   Appendix 1:                                      the status of these recommendations
                                                     as follows:
    Statistical Information

    Required by the

    Inspector General Act of 1978,

    as amended
                   Table I.1:                                                                                      45
        Appendix I Significant Recommendations from Previous
                   Semiannual Reports on Which Corrective Actions
                   Have Not Been Completed


                                     Significant
Report Number,                       Recommendation      Brief Summary of Planned Corrective Actions
Title, and Date                      Number              and Associated Monetary Amounts




Management Action In Process

Not Numbered                         1                   Implement policies and procedures that require cases
Leasing and Renovation Activities                        submitted to the Board of Directors be standardized.
March 18, 1998

98-080                               1                   Update the Acquisition Policy Manual to require that the
DIRM Operating Expenses                                  Division of Administration’s Acquisition Services Branch
September 15, 1998                                       employees ensure that future purchase requisitions for
                                                         on-line services are reviewed and authorized by the
                                                         Library Services Unit.

98-083                               1                   Require documentation from the trustee and servicers
Securitization Credit Enhancement                        that will support the withdrawals from the reserve fund.
Reserve Fund 1992-CHF
October 2, 1998                      2, 3                Disallow $385,727 in supplemental special servicer fees
                                                         billed early or before any work was performed.

98-086                               4                   Provide a refresher course to field examiners on the
Implementation of the Risk-Focused                       use of the Examiner Laptop Visual Information System
Examination Process                                      software and provide clarification on issues that have
November 5, 1998                                         emerged since the modules have been instituted.

98-089                               1                   Ensure that the Division of Supervision (DOS) regional
DOS Coordination of Examinations                         offices comply with the examination frequency require-
with State Banking Authorities                           ments, regardless of the state agency requests or
in the Kansas City Region                                pending mergers.
November 19, 1998
                                     4                   Return to a 12-month alternating examination cycle
                                                         with the state of Iowa.

98-090                               2, 4                Quantify the amount of overstated realized losses,
Credit Enhancement Reserve Fund                          unrecorded proceeds, Corporate advances and refunds
for Securitization Transactions                          resulting from accounting errors and request reimburse-
1993-03                                                  ment from NationsBanc, as successor to Boatmen.
November 24, 1998
                                     10                  Perform or contract for on-site reviews of the servicer’s
                                                         supporting documentation of the realized losses for the
                                                         single-family residential loan securitization program.

99-005                               5                   Modify existing policies to require the Regional Director
Material Loss Review – The Failure                       to provide a written justification for taking no supervisory
of BestBank, Boulder, Colorado                           action on a “3,” “4,” or “5” rated institution.
January 22, 1999
                                     8                   Develop and implement a policy where examiners review
                                                         the Division of Compliance and Consumer Affairs (DCA)
                                                         and state consumer complaint files on financial institutions
                                                         that have been identified as a supervisory concern.

                                     10                  Expand DOS’s Credit Card Specialty Bank Examination
                                                         Guidelines to include policies and procedures for
                                                         examining subprime credit card lending.
46                 Table I.1:
        Appendix I Significant Recommendations from Previous
                   Semiannual Reports on Which Corrective Actions
                   Have Not Been Completed


                                     Significant
Report Number,                       Recommendation      Brief Summary of Planned Corrective Actions
Title, and Date                      Number              and Associated Monetary Amounts




Management Action In Process

EVAL 99-001                          7                   Contact FOIA requesters to either inform them of delays
Federal Deposit Insurance Corpora-                       in processing their FOIA requests or when it is expected
tion’s Processing of Freedom                             that delays will occur.
of Information Act (FOIA)
February 26, 1999

EVAL 99-003                          3                   Study whether the effort required to prepare the
Division of Supervision Case                             Quarterly Large Insured Depository Institutions Review
Manager Program -Views of                                is worth the value the reports provide; or actions that
Those Who Are Implementing It                            can be taken to increase the report’s value.
March 31, 1999

99-013                               5                   Re-evaluate the risk areas defined and assign higher risk
DCA Policy for Determining                               rankings to more accurately reflect the changes made
Examination Frequency, Scope,                            to the frequency, scope, or priority of compliance
and Priority                                             examinations.
March 15, 1999

99-020                               12                  Incorporate security features into GENESYS that will
Follow-on Audit of FDIC’s General                        address security requirements in the functional require-
Examinations System (GENESYS)                            ments document and adequately protect confidential
Development Project                                      bank examination information against unauthorized
March 31, 1999                                           disclosure or alteration.

                                     13                  Perform a security review of GENESYS for compliance
                                                         with corporate security standards and ensure that the
                                                         application has adequate security.


Litigation

95-032                               5                   Recover $5,259,285 from the association for noncompli-
Local America Bank, F.S.B.,                              ance with the tax benefits provisions of the assistance
Assistance Agreement                                     agreement.
March 24, 1995

96-014                               1, 4 -16            Recover $4,526,389 of assistance paid to Superior Bank.
Superior Bank, F.S.B. Assistance
Agreement, Case Number C-389c
February 16, 1996

97-080                               8                   Disallow the improperly paid late fees and special
FDIC Property Tax Reassessments                          assessments totaling $4,385,089 and initiate action
& Refunds, Western Service Center                        to prevent future payments of such amounts.
July 17, 1997

98-026                             2, 3, 4, 6            Recover $1,220,470 of assistance paid to Superior Bank.
Assistance Agreement Audit of
Superior Bank, Case Number, C-389c 11                    Compute the effect of understated Special Reserve
March 9, 1998                                            Account for Payments in Lieu of Taxes and remit any
                                                         amounts due to the FDIC.
                  Table I.2:                                                              47
       Appendix I Audit Reports
                  Issued by Subject Area




Report Number,                       Questioned Costs                 Funds
Title, and Date                      Total              Unsupported   Put to Better Use




Supervision and Consumer Affairs

99-032
Division of Supervision Reliance
on State Examinations
August 2, 1999

99-037
Analysis of Division of
Supervision’s 1999 Examination
Workload
August 25, 1999

99-042
Analysis of Division of Compliance
and Consumer Affairs’ 1999
Examination Workload
September 30, 1999


Award, Administration, and Oversight of Contracts and Agreements

99-022                               $6,564
Legal Fees Paid to Baker & Botts
April 14, 1999

99-023                               $1,387,094         $297,025
Kenneth Leventhal’s Billings for
Due Diligence Services Under
Basic Ordering Agreement
700-90-0014 and Letter Agreement
Dated May 26, 1992
April 22, 1999

99-024                               $199,246           $176,302
Legal Fees Paid to
Hunton & Williams
May 5, 1999

99-025                               $872
Legal Fees Paid to
Twomey, Hoppe & Gallanty, L.L.P.
May 20, 1999

99-026                               $597               $97
Legal Fees Paid to
Mullin, Hoard & Brown, L.L.P.
June 7, 1999
48                 Table I.2:
        Appendix I Audit Reports
                   Issued by Subject Area




Report Number,                        Questioned Costs                         Funds
Title, and Date                       Total              Unsupported           Put to Better Use




Award, Administration, and Oversight of Contracts and Agreements (continued)

99-029                                $2,604,100         $12,615
Kenneth Leventhal’s Billings for
Due Diligence Services Under
Contract 700-90-0014 and
Unsigned Letter Agreement
Dated May 29, 1992
July 16, 1999

99-031                                $307
Legal Fees Paid to
Roy, Kiesel & Tucker
July 27, 1999

99-033                                $4,037             $291
Legal Fees Paid to
Peabody & Arnold, L.L.P.
August 5, 1999

99-034                                $41,937            $4,018
Legal Fees Paid to
Adorno & Zeder, P.A.
August 12, 1999

99-036                                $80,504            $16,146
Payments to Dames & Moore
August 17, 1999


Asset Servicing and Liquidation

99-021                                $337,789
Bank Midwest, NA— RTC Mortgage
Trust 1995-SN2
April 15, 1999

99-027                                $340,279           $7,156
Limited Scope Audit of the
Credit Enhancement Reserve Funds
for Securitization Transactions
for 1991-16 and 1992-05
July 6, 1999

99-030                                 $15,253
Sun NLF, Limited Partnership
Sterling Pacific Assets, Roseville, CA
July 28, 1999

99-035                                $1,222,259         $8,829
RTC Mortgage Trust 1992-N1
August 23, 1999
                         Table I.2:                                                                                      49
              Appendix I Audit Reports
                         Issued by Subject Area




Report Number,                                           Questioned Costs                            Funds
Title, and Date                                          Total                         Unsupported   Put to Better Use




Asset Servicing and Liquidation (continued)

A99-038                                                                                              $3,300,000
Abandoned Assets Held by States’
Unclaimed Property Agencies
August 27, 1999

D99-039                                                                                              $115,000
Cost Effectiveness of the
National Insurance Program
September 20, 1999


Financial and Management Information Systems

99-028
Personnel Action Processing
Controls and Security
July 29, 1999

99-041
Award & Administration of
DIRM Service Contracts
September 30, 1999


Corporate Activities and Administration

EVAL-99-004 ●                                                                                        $6,712,806
Evaluation of FDIC Headquarters
Copier Administration Program
June 15, 1999

EVAL-99-006 ●                                                                                        $31,000
FDIC Headquarter
Laser Printer Cartridges
August 19, 1999

99-040
Semiannual Report of FDIC Board
Members’ Travel Voucher Reviews
March 1999 through August 1999
September 27, 1999




Totals for the Period                                    $6,240,838                    $522,479      $10,158,806




●
    Evaluation reports are included in this table to reflect funds put to better use amounts.
50                      Table I.3:
             Appendix I Audit Reports
                        Issued with Questioned Costs




                                                                                    Questioned Costs
                                                       Number                       Total                       Unsupported




A. For which no management                             0                            0                           0
   decision has been made by
   the commencement of the
   reporting period.

B. Which were issued during                            14                           $6,240,838                  $522,479
   the reporting period.



     Subtotals of A and B                              14                           $6,240,838                  $522,479


C. For which a management                              14                           $6,246,654                  $522,479
   decision was made during
   the reporting period.

     (i) dollar value of disallowed                    14                           $4,869,717 ●                $348,878
         costs.

     (ii) dollar value of costs                        5▼                           $1,376,937                  $173,601
          not disallowed.

D. For which no management                             0                            0                           0
   decision has been made by
   the end of the reporting period.

     Reports for which no manage-                      0                            0                           0
     ment decision was made within
     6 months of issuance.




●
     Management disallowed $5,816 more than questioned for one recommendation.
▼    The 5 reports included on the line for costs not disallowed are also included in the line for costs disallowed, since management
     did not agree with some of the questioned costs.
                       Table I.4:                                                                                                  51
            Appendix I Audit Reports
                       Issued with Recommendations
                       for Better Use of Funds




                                                                                    Number                       Dollar Value




A. For which no management                                                          0                            0
   decision has been made by
   the commencement of the
   reporting period.

B. Which were issued during                                                         4                            $10,158,806 ● ▼
   the reporting period.



    Subtotals of A and B                                                            4                            $10,158,806


C. For which a management                                                           4                             $10,158,806
   decision was made during
   the reporting period.

    (i) dollar value of recommend-                                                  4                            $10,158,806
        ations that were agreed to
        by management.

         based on proposed                                                          4                            $10,158,806
         management action.

         based on proposed                                                          0                            0
         legislative action.

    (ii) dollar value of recommend-                                                 0                            0
         ations that were not agreed
         to by management.

D. For which no management                                                          0                            0
   decision has been made by
   the end of the reporting period.

    Reports for which no manage-                                                    0                            0
    ment decision was made within
    6 months of issuance.




●
    Two evaluation reports, totaling $6,743,806, are included in the line.
▼   One evaluation report identified $31,000 for better use of funds. The savings identified are recurring in nature.
52




     Table I.5:
     Status of OIG Recommendations
     Without Management Decisions

     During this reporting period, there were no recommendations
     without management decisions.

     Table I.6:
     Significant Revised Management Decisions



     During this reporting period, there were no significant
     revised management decisions.


     Table I.7:
     Significant Management Decisions
     with Which the OIG Disagreed


     During this reporting period, there were no significant
     management decisions with which the OIG disagreed.

     Table I.8:
     Instances Where Information
     Was Refused


     During this reporting period, there were no instances
     where information was refused.
                        Table II:1
            Appendix II Evaluation Reports                                                                    53
                        Issued




                                             Report Number,
                                             Title, and Date     Title




                                             EVAL-99-004         Evaluation of FDIC Headquarters Copier
                                             June 17, 1999       Administration Program


                                             EVAL-99-005         FDIC’s Relocation Program
                                             July 9, 1999


                                             EVAL-99-006         FDIC Headquarters Laser Printer Cartridges
                                             August 20, 1999


                                             EVAL-99-007        Evaluation of FDIC Regional Copier Program
                                             September 30, 1999




●   Appendix II:

    Reports Issued by the

    Office of Congressional

    Relations and

    Evaluations
    54




                                Before the Resolution Trust Corporation (RTC) sunset, the OIG agreed to
                                assume responsibility for completing the reviews of RTC contractors initiated
                                or planned by an RTC management oversight unit. OIG work included
                                resolution of more than 1,000 recommendations in the backlog of unresolved
                                reports transitioned to the FDIC on January 1, 1996, and 340 recommendations
                                from reports generated by the OIG Office of Quality Assurance and Oversight.
                                The tables below present information related to these OIG activities as of
                                September 30, 1999.

                                This information is not included with audit statistics in Appendix I of this report
                                because this work was initiated by RTC management, using agreed-upon
                                procedures with independent public accountants, to meet management’s
                                need for contractor oversight and contract closeout.




●   Appendix III:

    Statistical Information

    Related to OIG Completion

    of RTC Contractor Reviews
                       Table III.1:                                                                                                 55
          Appendix III Status of Management Actions on Recommendations
                       Contained in RTC Contractor Expiration Review Reports
                       Issued Since January 1, 1996



                                                 Number of                  Questioned Costs
                                                 Recommendations            Disallowed

                                                                            ($ millions)




Total Management Actions Required                340                        $ 11.44

Management Actions Completed:

    A. Prior to This Reporting Period            332                        $ 8.58

    B.This Reporting Period                      2                          $ 0.49

Subtotals of A and B                             334                        $ 9.07

Management Actions Remaining
to Be Completed as of Sept. 30, 1999             6                          $ 2.37




                       Table III.2:
          Appendix III Status of Management Actions on Recommendations
                       Contained in RTC Contractor Expiration Review Reports
                       Issued Before January 1, 1996 ●



                                                  Number of                 Questioned Costs                        Other Costs
                                                  Recommendations           Disallowed                              Disallowed

                                                                            ($ millions)                             ($ millions)




Total Management Actions Required                 1,545▼                    $ 85.98▼                                $ 27.30

Management Actions Completed
as of Sept. 30, 1999                              1,540                     $ 102.93                                $ 13.14

Management Actions Remaining
to be Completed as of Sept. 30, 1999              5                         $ 1.52■                                 $ 0.00


●
    Statistics provided by and derived from FDIC Office of Internal Control Management.
▼   Total Management Actions Required as initially established pursuant to a joint OIG/management action plan. Management has
    identified retroactive adjustments not reflected in the total. We show those adjustments as Management Actions Completed.
■
    The $1.52 million in disallowed costs is considered in litigation. The Legal Division will be the final determinant
    for all items so categorized.
A number of staff from the OIG          Additionally, two groups from our
were honored at the annual award        office received Honorable Mention
ceremony of the President’s Council     awards: our Y2K audit team members
on Integrity and Efficiency and the     for their work regarding the FDIC’s
Executive Council on Integrity and      internal and regulatory efforts to
Efficiency. Magdaleno Velasquez         address Y2K concerns and the inter-
accepted the Award for Excellence       disciplinary team responsible for the
on behalf of a team of auditors         audit and report on the Material
from the Board of Governors of          Loss Review of the Failure of
the Federal Reserve System,             BestBank, Boulder, Colorado. Finally,
National Credit Union Administration,   a member of our financial statement
Department of the Treasury, and         audit group was included in a
the FDIC for their work on the          group award to the Federal Audit
Joint Review of the Federal Financial   Executive Council’s Financial
Institutions Examination Council’s      Statement Audit Network team.
(FFIEC) Training Program. The audit
team made recommendations to
help improve management of the
FFIEC’s training program and thereby
maximize its usefulness to member
agencies.




                                                                  !
                                        The OIG is proud of the individuals
                                        who realized these accomplishments.
                   progress



Offices of Inspector General            As discussed in their report, entitled      To view the PCIE/ECIE report,
                                                                                    please visit:
Have Government-wide Impact             A Progress Report to the President,
                                                                                    www.ignet.gov
                                        PCIE and ECIE members identified            or contact:
The President’s Council on Integrity    during FY 1998 alone over $16 billion       the Environmental Protection
                                                                                    Agency OIG
and Efficiency (PCIE) and the           of federal funds that could be put to
                                                                                    at (202) 260-3137.
Executive Council on Integrity and      better use by government managers.
Efficiency (ECIE) issued their joint    Over that same period, nearly 15,000
annual report highlighting results of   wrongdoers were successfully prose-
the OIG community during fiscal year    cuted, almost $1.4 billion in restitution
(FY) 1998. As a member of the PCIE,     and investigative recoveries were
the FDIC OIG is proud of the excel-     realized, and more than 7,000
lent progress that the Inspector        unscrupulous individuals or firms
General community has made in its       were disqualified from receiving
efforts to promote more efficient,      government contracts or otherwise
economical, and effective programs      participating in government programs.
and operations throughout the federal
government.
           Federal Deposit Insurance Corporation
           Office of Inspector General
           801 17th Street, NW
           Washington, DC 20434




inspector general
           For additional copies or information,
           contact us at the above address.


           All audit and evaluation reports discussed
           in this Semiannual Report can be found
           in their entirety at our homepage:
           www.ignet.gov/ignet/internal/fdic
